IN THE SUPREME COURT OF THE UNITED STATES
CASE NO.

WILLIAM BRANSFORD
Petitioner,
V.
DANIEL WINKLESKI,
Respondent
APPENDIX
On Petition For A Writ Of Certiorari To The United States Court Of Appeals
For The Seventh Circuit

Order of the United States Court of Appeals for the Seventh Circuit.
Appendix A
Orders of the United States District Court Eastern District of Wisconsin
Appendix B
April 23, 2019 Wisconsin Court of Appeal decision
Appendix C
January 10, 2018 Circuit Court decision,

Appendix D

October 3 & August 9, 2016 Wisconsin Court of Appeal decisions
Appendix E
Trial transcripts of closing arguments from April 22, 2002
Appendix F
DNA Report of Alan Friedman dated October 24, 2003........ Appendix G
Correspondence Attorney Erickson & Bransford
86 Fordham L. Rev. 1709

Appendix H
Appendix J

Direct Appeal Motions and Decisions

Appendix K

April 29, 2015 Wisconsin Court of Appeal decisions

Appendix L

Mirthb^iatcs (Court of Appeals
For the Seventh Circuit
Chicago, Illinois 60604
Submitted January 26, 2021
Decided February 3, 2021
Before
DAVID F. HAMILTON, Circuit Judge
MICHAEL Y. SCUDDER, Circuit Judge
No. 20-3307
WILLIAM H. BRANSFORD,
Petitioner-Appellant,

Appeal from the United States District
Court for the Eastern District of Wisconsin.

v.

No. 20-CV-462-JPS

DAN WINKLESKI,
Respondent-Appellee.

J. P. Stadtmueller,

Judge.
ORDER

William Bransford seeks a certificate of appealability regarding the denial of his
petition under 28 U.S.C. § 2254. After reviewing the final order of the district court and
the record on appeal, we find no substantial showing of the denial of a constitutional
right See 28 U.S.C. § 2253(c)(2).
Accordingly, the request for a certificate of appealability is DENIED. All
pending motions are also DENIED.

ft*l

UNITED STATES DISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
WILLIAM H. BRANSFORD,
Petitioner,
Case No. 20-CV-462-JPS

v.
WARDEN DAN WINKELSKI,

ORDER

Respondent.

On March 23, 2020, Petitioner William H. Bransford ("Bransford")
filed a petition for a writ of habeas corpus pursuant to 28 U.S.C. § 2254,
alleging that his continued incarceration in the custody of the State of
Wisconsin is a violation of his constitutional rights. (Docket #1). The Court
will now turn to screening the petition under Rule 4 of the Rules Governing
Section 2254 Proceedings. Rule 4 authorizes a district court to conduct an
initial screening of habeas corpus petitions and to dismiss a petition
summarily where "it plainly appears from the face of the petition . . . that
the petitioner is not entitled to relief." The Rule provides the district court
the power to dismiss both those petitions that do not state a claim upon
which relief may be granted and those petitions that are factually frivolous.
See Small v. Enaicott, 998 F.2d 411, 414 (7tn Cir. 1993). Under Ruie 4, the
Court analyzes preliminary obstacles to review> such as whether the
petitioner has complied with the statute of limitations, exhausted available
state remedies, avoided procedural default, and set forth cognizable claims.
According to his petition and the state court docket, on April 23,
2002, Bransford was adjudged guilty by a jury of his peers of one count of
robbery, one count of kidnapping, and six counts of second-degree sexual

Case 2:20-cv-0''""'’ . me rz;i^ 10/0-7/90 Pa op i of 5 Document 6

assault/use of force in Milwaukee County Circtiit 'Court Case No.
2001CF6890. He received a bifurcated sentence of 168 years with 112 years
to be served in the Wisconsin State Prison System and 56 years of extended
supervision, with all counts running consecutively. Shortly thereafter,
Bransford filed, a motion. for resentencing which was denied by the
Milwaukee County Circuit Court on October 20,2003. The Wisconsin Court
of Appeals affirmed this decision on December 17, 2004, and the SupremeCourt of Wisconsin denied Bransford's petition for review on April 6, 2005.
Starting in June 2014, Bransford initiated a series of collateral attacks on his
conviction and sentence on grounds including ineffective assistance of
counsel and improper denial of his post-conviction motion to review his
presentence investigation report. The Milwaukee County. Circuit Court
denied all three of his challenges; the Wisconsin Court of Appeals affirmed
these denials; and the Supreme Court of Wisconsin declined review of these
decisions: See State v. Bransford ("Bransford II"), No. 2014AP1607-CR; State v.
Bransford ("Bransford III"), No. 2016AP553-W; State v. Bransford ("Bransford
IIII"), No. 2018AP266.
The court begins its Rule 4 review by examining the timeliness of the
habeas petition. A state prisoner in custody pursuant to a state court
judgment has one year from the date "the judgment became final" to seek
federal habeas relief. 28 U.S.C. *§ 2244(d)(1)(A). A judgment becomes final
within the meaning of § 2244(d)(1)(A) when all direct appeals in the state
courts are concluded followed by either the completion or denial of
certiorari proceedings in the U.S. Supreme Court, or, iT certiorari is not
sought, at the expiration of the ninety days allowed for filing for certiorari.
See Ray v. Clements, 700 F.3d 993, 1003 (7th Cir. 2012) (citing Anderson v.
Litscher, 281 F.3d 672, 675 (7th Cir. 2002)).
Page 2 of 5
Case 2:20-cv-00462-JPS Filed 10/27/20 Page 2 of 5 Document 6

Here, Bransford's petition is untimely. Bransford's direct appeal
ended on April 6, 2005, the day that the Wisconsin Supreme Court denied
his request for discretionary review. His ninety-day period for petitioning
the U.S. Supreme Court for certiorari began on April 6, 2005 and expired on
July 5, 2005. Bransford did not seek a writ of certiorari, so the one-year
j'

habeas clock started to run on July 5, 2005. It was not until June 25, 2014,
nearly ten years after the statute of limitations began to run, that Bransford
filed his first collateral attack of his conviction and sentence. Thus, despite
any of the tolling that may have been afforded under 28 U.S.C. § 2244(d)(2)
during the pendency of his interim state challenges, the statute of
limitations had already run. See 28 U.S.C. § 2244(d)(1)(A). Thus, Bransford's
present petition is untimely.
Bransford argues that he should not be proeedurally barred from
pursuing his habeas petition because he has been "diligently pursuing relief
as a -pro se litigant in the state court since [2014]." (Docket #2 at 7). A late
petition can only be considered under two circumstances. The first is
commonly known as the "actual innocence" exception, i.e., if the petitioner
"'presents evidence of innocence so strong that a court cannot have
confidence in the outcome of the trial unless the corut is also satisfied that
the trial was free of non-harmless error.'" Gladney v. Pollard, 799 F.3d 889,
896 (7th Cir. 2015) (quoting Schlup v. Delo, 513 U.S. 298, 316 (1995)).
Bransford does not present evidence of actual innocence, so the first
exception is not at play.
The second exception is "equitable tolling," which is "reserved for
extraordinary circumstances far beyond the litigant's control that
prevented timely filing." Socha v. Boughton, 763 F.3d 674, 684 (7th Cir. 2014)
(quotation omitted). To be entitled to equitable tolling, a petitioner bears

Case 2:20-cv-00462-JPS

Page 3 of 5
Filed 10/27/20 Page 3 of 5 Document 6

the burden of establishing: "(1) that he has, been pursuing his rights
diligently, and (2) that some extraordinary, circumstance stood in his way
and prevented timely filing," Id. at 683-84; Holland v. Florida, 560.U.S.631,
649 (2010). Bransford did not initiate his pursuit of relief until nearly ten

:

years after his direct appeal was made final. This cannot be characterized,
as "diligent." Further, Bransfprd has failed to allege any "extraordinary
circumstances",,that prevented, him from timely, filing this petition.
• Accordingly,( the Court will not- equitably toll the statute of limitations in. .
this case.

.

Because Bransford's petition is untimely, his petition must be
dismissed under Rule 4. Under Rule 11(a) of the Rules Governing Section
2254 Cases, "the district court must issue or deny a certificate of
appealability when it enters a final order adverse to the applicant." To
obtain a certificate of appealability under 28 U.S.C. § 2253(c)(2), Bransford
must make a "substantial showing of the denial of a constitutional right"
by establishing that "reasonable jurists could debate whether (or, for that
matter, agree that) the petition should have been resolved in a different
manner or that the issues presented were adequate to deserve
encouragement to proceed further." Miller-El v. Cockrell,.537 U.S. 322, 336
(2003) (internal citations omitted). In this case, no reasonable jurists could
debate whether Bransford's petition was timely. As a consequence, the
Court is compelled to deny him a certificate of appealability.
Accordingly,
IT IS ORDERED that Petitioner's petition for a writ of habeas
corpus (Docket #1) be and the same is hereby DENIED;
IT IS FURTHER ORDERED that this action be and the same is
hereby DISMISSED with prejudice; and
Page 4 of 5
Case 2:20-cv-00462-JPS Filed 10/27/20 Page 4 of 5 Document 6 ,

,

IT IS FURTHER ORDERED that a certificate of appealability be and
the same is hereby DENIED.
The Clerk of Court is directed to enter judgment accordingly.
Dated at Milwaukee, Wisconsin, this 27th day of October, 2020.
B^CTHE&OURT:

J. P. Stal
lueller
U.SSDist/ict Judge

Page 5 of 5
Case 2:20-cv-00462-JPS Filed 10/27/20 Page 5 of 5 Document 6

UN-LXED-SXAXESJDISTRICT COURT
EASTERN DISTRICT OF WISCONSIN
WILLIAM H. BRANSFORD,
Petitioner,
Case No. 20-CV-462-JPS

v.
WARDEN DAN WINKELSKI,

JUDGMENT
Respondent.

Decision by Court. This action came on for consideration before the Court
and a decision has been rendered.
IT IS ORDERED AND ADJUDGED that Petitioner's petition for a
writ of habeas corpus (Docket #1) be and the same is hereby DENIED;
IT IS FURTHER ORDERED AND ADJUDGED that this action be
and the same is hereby DISMISSED with prejudice; and
IT IS FURTHER ORDERED AND ADJUDGED that a certificate
of appealability be and the same is hereby DENIED.
PPROyED:
\
1
j!iP. Sta^q^ueller
UA. District Judge

October 27, 2020
Date

GINA M. COLLETTI
Clerk of Court
s/ Jodi L. Malek
By: Deputy Clerk

Case 2:20-cv-00462-JPS Filed 10/27/20 Page 1 of 1 Document 7

COURT OF APPEALS
DECISION
DATED AND FILED
April 23, 2019
Sheila T. Reiff
Clerk of Court of Appeals

Appeal No.

NOTICE
This opinion is subject to further editing. If
published, the official version will appear in
the bound volume of the Official Reports.
A party may file with the Supreme Court a
petition to review an adverse decision by the
Court of Appeals. See WlS. Stat. § 808.10
and RULE 809.62.

2018AP266

STATE OF WISCONSIN

Cir. Ct. No. 2001CF6890

IN COURT OF APPEALS
DISTRICT I

State of Wisconsin,
Plaintiff-Respondent,

v.
William Bransford,
Defendant-Appellant.

APPEAL from an order of the circuit court for Milwaukee County:
CAROLINA STARK, Judge. Affirmed.
Before Kessler, P.J., Brennan and Kloppenburg, JJ.
Per curiam opinions may not be cited in any court of this state as precedent
or authority, except for the limited purposes specified in Wis. STAT. Rule 809.23(3).

Appendlit C

No. 20I8AP266

II1

PER CURIAM. William Bransford, pro se, appeals from an order

denying his WlS. STAT. § 974.06 (2017-18) postconviction motion without a
hearing.1 Because Bransford has not set forth a sufficient reason for failing to
raise his claims earlier, we affirm.
I. Background

112

This appeal constitutes Bransford’s third attempt to challenge his

2002 convictions for eight felonies, which included six counts of second-degree
sexual assault, one count of robbery with use of force, and one count of
kidnapping.

113

In his direct appeal, Bransford challenged his convictions and the

order denying his WlS. STAT. § 974.02 (2003-04) motion for resentencing. He
argued that the sentencing court erred when it failed to consider whether he might
benefit from WlS. STAT. ch. 980, which provides for commitment of sexually
violent offenders after release from imprisonment for sexually violent crimes.
State v. Bransford (Bransford I), No. 2003AP3068-CR, unpublished op. and
order atl (WI App Dec. 17, 2004). We summarily affirmed. See id.

H4

Bransford, pro se, subsequently appealed an order denying his

postconviction motion for permission to review his presentence investigation

All references to the Wisconsin Statutes are to the 2017-18 version unless otherwise
noted.
The Honorable Jacqueline D. Schellinger presided over Bransford’s jury trial and
imposed the sentences in this matter. The Honorable Carolina Stark denied the postconviction
motion that underlies this appeal.

2

No. 2018AP266

report (PSI).

State v. Bransford {Bransford II), No. 2014AP1607-CR,

unpublished op. and order at 1 (WI App Apr. 29, 2015). We affirmed. See id.

H5

Next, Bransford, pro se,. petitioned for a writ of habeas corpus

alleging ineffective assistance of appellate counsel.

State v. Bransford

{Bransford III), No. 2016AP553-W, unpublished op. and order (WI App Aug. 9,
2016). In our opinion, we denied some of Bransford’s claims because he raised
them in the wrong court given that they alleged claims of ineffectiveness against
postconviction counsel. See id. at 5-6. In doing so, we noted that Bransford may
face barriers to his pursuit of relief in the circuit court. See id. at 7 n. 1.

H6

This brings us to the postconviction motion at issue in this appeal.

In his motion, Bransford argued that postconviction counsel was ineffective for
not pursuing claims based on trial counsel’s ineffectiveness.

Specifically,

Bransford claimed his trial counsel was ineffective for failing to do the following:
(1) retain a DNA expert to assist him during the process of deciding whether to
accept the State’s plea offer; (2) present various defenses at trial; and (3) request a
new PSI for sentencing. He continues to pursue these claims on appeal.

V:

Additional background information is set forth below as necessary.
II. Discussion

H8

At issue is whether the circuit court erroneously exercised its

discretion when it denied Bransford’s postconviction motion without a hearing.
Our supreme court has summarized the applicable legal standards:
Whether a motion alleges sufficient facts that, if true,
would entitle a defendant to relief is a question of law that
this court reviews de novo. The circuit court must hold an
evidentiary hearing if the defendant’s motion raises such
facts. However, if the motion does not raise facts sufficient
3

No. 2018AP266

to entitle the movant to relief, or presents only conclusory
allegations, or if the record conclusively demonstrates that
the defendant is not entitled to relief, the circuit court has
the discretion to grant or deny a hearing.
State v. Burton, 2013 WI 61,138, 349 Wis. 2d 1, 832 N.W.2d 611 (italics added;
citations and internal quotation marks omitted).

119

WISCONSIN STAT. § 974.06 permits collateral review of the

imposition of a sentence based on errors of jurisdictional or constitutional
dimension. State v. Johnson, 101 Wis. 2d 698, 702, 305 N.W.2d 188 (Ct. App.
1981). However, it “was not designed so that a defendant, upon conviction, could
raise some constitutional issues on appeal and strategically wait to raise other
constitutional issues a few years later.” State v. Escalona-Naranjo, 185 Wis. 2d
168, 185, 517 N.W.2d 157 (1994). Thus, a defendant who has had a direct appeal
or another postconviction motion may not seek collateral review of an issue that
was or could have been raised in the earlier proceeding, unless there is a
“sufficient reason” for failing to raise it earlier. See id. (italics omitted).
IflO

A claim of ineffective assistance from postconviction counsel may

present a “sufficient reason” to overcome the Escalona procedural bar. See, e.g.,
State ex rel. Rothering v. McCaughtry, 205 Wis. 2d 675, 682, 556 N.W.2d 136
(Ct. App. 1996).

A defendant can overcome the presumption of effective

assistance only if he can “show that ‘a particular nonfrivolous issue was clearly
stronger than issues that counsel did present.”’ State v. Romero-Georgana, 2014
WI 83,1f1|45-46, 360 Wis. 2d 522, 849 N.W.2d 668 (applying “‘clearly stronger’”
standard to evaluation of WlS. STAT. § 974.06 motions “when postconviction
counsel is accused of ineffective assistance on account of his failure to raise
certain material issues before the circuit court”) (citations, italics, and one set of
quotation marks omitted). Whether a procedural bar applies is a question of law

4

No. 2018AP266

we review de novo. See State v. Tolefree, 209 Wis. 2d 421, 424, 563 N.W.2d 175
(Ct. App. 1997).
1fl 1

“

To be entitled to an evidentiary hearing, Bransford “was required to

do more than assert that his postconviction counsel was ineffective for failing to
challenge on direct appeal several acts and omissions of trial counsel that he
alleges constituted ineffective assistance.” See State v. Balliette, 2011 WI 79, 1J63,
336 Wis. 2d 358, 805 N.W.2d 334. He was required to allege that postconviction
counsel’s ‘“performance was deficient’ and ‘that the deficient performance
prejudiced the defense.’” See id. (citation omitted). If his allegations fail as to one
of these prongs, we need not address the other prong.

See Strickland v.

Washington, 466 U.S. 668, 697 (1984) (holding that a defendant must show
deficient performance and prejudice to prevail on ineffective assistance claims).
We conclude that Bransford has failed to show that he is entitled to an evidentiary
hearing or relief on his claims that postconviction counsel was ineffective. We
will address each claim in turn and explain why it fails.
(1) A DNA expertfor the defense.
H12

The complaint in this matter was filed seventeen months after the

crimes occurred. The charges were filed after investigators discovered that DNA
in semen collected from the victim matched a DNA profile collected from
Bransford. According to the report of a forensic scientist with the Wisconsin State
Crime Laboratory (the crime lab), which was referenced in the complaint:
[T]he probability of randomly selecting an unrelated
individual whose DNA profile would match the DNA
profile from the semen found on the anal swab and
underpants of [the victim] is approximately 1 in 14
quintillion in the Caucasian population, 1 in 93 quadrillion
in the African-American population and 1 in 2.1 quintillion
in the Hispanic population.

5

No. 2018AP266

The victim did not identify Bransford in a lineup.
1fl3

Bransford was offered a plea agreement: in exchange for a guilty

plea to one count of second-degree sexual assault and to the kidnapping charge,
the State would recommend twenty years of initial confinement and ten years of
extended supervision. Bransford instead proceeded to a jury trial on all eight
charges. A forensic scientist who worked for the crime lab testified to the DNA
results implicating Bransford. The jury convicted Bransford on all of the charges,
and the circuit court sentenced him to 168 years, bifurcated as 112 years of initial
confinement and 56 years of extended supervision.
114

In his WlS. Stat. § 974.06 motion, Bransford argued that he “was

not provided with any means of making an intelligent decision concerning the
weight of the evidence against him except being told that the [Sjtate had DNA
evidence.” Bransford contends that his postconviction counsel was ineffective for
not arguing that trial counsel was ineffective for failing to retain a DNA expert for
the defense. Bransford asserts that there is a reasonable probability that he would
have accepted the plea agreement offered by the State had he been provided with
the report from Alan Friedman (a DNA expert who was retained by postconviction
counsel) before trial. Bransford further asserts that this issue was clearly stronger
than the issue pursued in postconviction counsel’s WlS. Stat. § 974.02 (2003-04)
motion and on direct appeal.
.115

In his report, Friedman concluded that crime lab protocol was

followed, and he did not find any issues with the quality of the crime lab’s work.
Without this information, which essentially affirmed the correctness of the original
findings by the crime lab, Bransford claims he was precluded from making an
informed, knowing, and intelligent decision during plea negotiations.

6

No. 2018AP266

1[ 16

Bransford was required to demonstrate within the four comers of his

motion that his postconviction counsel was ineffective for not challenging trial
counsel’s failure to secure a DNA expert for the defense in advance of the plea
negotiations. See Romero-Georgana, 360 Wis. 2d 522, ]f64 (“We will not read
into the [Wis. Stat.] § 974.06 motion allegations that are not within the four
comers of the motion.”). As to the second prong of the ineffective-assistance-ofcounsel test, Bransford simply asserts that postconviction counsel’s failure to
pursue an ineffective assistance claim against trial counsel on this basis resulted in
prejudice. However, he does not state that he would have told his postconviction
counsel to pursue this claim, had she advised him that it was an option, because he
needed to be able to weigh the State’s evidence before deciding whether to
proceed to trial.

See Romero-Georgana, 360 Wis. 2d 522, ^68 (“A proper

allegation of prejudice would state that Romero-Georgana would have told
Attorney Hagopian to pursue the plea withdrawal claim if she had advised him
that it was an option because he wanted to avoid deportation.”). The mere fact
that postconviction counsel did not pursue this claim, without more information,
does not demonstrate ineffectiveness, and “[w]e will not assume ineffective
assistance from a conclusory assertion[.]” See id.,

(stating that the mere fact

that postconviction counsel did not pursue certain claims does not demonstrate
ineffectiveness).
1fl7

Because we have determined that the Wis. Stat. § 974.06 motion

does not allege sufficient facts to demonstrate prejudice as to Bransford’s DNA
expert claim, he fails to show that this claim is clearly stronger than the claim that
postconviction counsel actually brought. See Romero-Georgana, 360 Wis. 2d

7

No. 2018AP266

522,1J43-46. Accordingly, Bransford fails to show that his postconviction counsel
was ineffective.2
(2) Bransford’s theories of defense.
■'118

In his postconviction motion Bransford claimed that his trial counsel

was ineffective for failing to investigate and to perform legal research to support
defenses to the State’s DNA evidence. He specifically faults trial counsel for not
pursuing theories “that the source of the DNA had come from [Bransford’s] shirt
that he had discarded after exchanging it with a shirt from the yard of [another
man]” or “that the source of the DNA came from consensual sex between the
victim and Bransford and neither of them could recall because it was the result of
a spontaneous one time sexual experience while both were intoxicated.”
119

We conclude that Bransford’s claim that trial counsel was ineffective

for not pursuing any alternative defense theories is, as the postconviction court
stated, “wholly conclusory in nature and completely without factual support to
establish a viable claim for relief.” See Burton, 349 Wis. 2d 1, ^[38 (holding that a
. circuit court has discretion to deny a hearing where a motion presents only
conclusory allegations). Accordingly, Bransford fails to show that this claim is
clearly stronger than the claim that postconviction counsel actually brought, such
that postconviction counsel was ineffective.

2 Bransford also alleged that postconviction counsel was ineffective for failing to argue
that trial counsel was ineffective for improperly advising Bransford that the State’s DNA
evidence would not be admissible. However, Bransford does not explain why, in light of that
alleged advice, he still needed a DNA expert to examine the State’s DNA evidence. Moreover,
Bransford s allegation is refuted by the record, in which trial counsel states that he saw no basis
for challenging the admissibility of the State’s DNA evidence. Because Bransford’s reference to
this allegation is undeveloped, inconsistent with his argument as to his need for a DNA expert,
and refuted by the record, we do not address it further.

8

No. 2018AP266

(3) A new PSI.
TJ20

Some of the background information relating to this claim was set

forth in our decision in Bransford II:
The [circuit] court ordered preparation of a PSI in advance
of sentencing. When the matter reconvened for the
sentencing hearing, however, Bransford objected to the PSI
because its author, without consulting or advising trial
counsel, had required Bransford to take a psychological
examination. Bransford sought to strike the PSI and to
require a new PSI prepared by an author who was
uninfluenced by the results of the psychological
examination.
The [circuit] court proposed going forward with the
sentencing, explaining that the court had not read the PSI
and would not do so.
To further ensure that the
psychological examination would not affect Bransford’s
sentencing, the [circuit] court ordered the State to limit any
discussion of the contents of the PSI to objective
information and biographical data. The [circuit] court
additionally assured Bransford that it would seal all of the
copies of the PSI so that its contents could not be obtained
from the court file.
Bransford, through trial counsel, said he was
“completely prepared to proceed” as the [circuit] court
proposed. The State also agreed with the [circuit] court’s
solution. The State further advised that it had already
identified for defense counsel the portions of the PSI the
State would discuss, and defense counsel had no objection.
The [circuit] court then conducted the sentencing
hearing without reviewing the PSI. At the conclusion of
the proceeding, the [circuit] court imposed eight
consecutive sentences.
The aggregate term of
imprisonment was 168 years, bifurcated as 112 years of
initial confinement and 56 years of extended supervision.
Id., No. 2014AP1607-CR, at 1.
^21

According to Bransford, comments throughout the sentencing

hearing concerning a prior sexual assault charge in Tennessee and a promiscuous
lifestyle were gleaned from the psychological report by the PSI writer, the
9

No. 2018AP266

prosecutor, and the judge. In his postconviction motion, Bransford alleged that
trial counsel was ineffective for failing to request a' new PSI. Bransford argues
that simply sealing the PSI was not a proper remedy.
122

According to Bransford, “[Requesting a new PSI would have

protected Bransford from any contaminating factors while preserving mitigating
circumstances.” For instance, Bransford suggests that the fact that he “sired a
child at the age of fourteen years old” with a then-twenty-year-old woman would
have been considered as a mitigating circumstance if a psychological examination
was presented by the defense. Bransford writes: “The record clearly shows that
[trial counsel] made a motion to strike the PSI before being strong-armed by [the
circuit court] to disregard the constitutional error.”

By his own admission,

Bransford acknowledges that trial counsel did object to the PSI. Accordingly, he
fails to show that trial counsel was deficient. Moreover, he fails to explain how a
new PSI containing this information would have made a difference at sentencing.
He also fails to explain why he himself could not have brought this information to
the circuit court’s attention at sentencing.
1123

For all of these reasons, Bransford fails to show that his PSI claim is

clearly stronger than the claim that postconviction counsel actually brought, such
that postconviction counsel was ineffective.
1]24

In sum, Bransford did not, demonstrate in his motion any sufficient

reason for failing to raise his claims earlier. Consequently, the procedural bar of
, Escalona and WlS. STAT. § 974.06(4) applies. The postconviction motion was
properly denied without a hearing.
By the Court.—Order affirmed.

10

STATE OF WISCONSIN

CIRCUIT COURT
Branch 17
~

MILWAUKEE COUNTY

STATE OF WISCONSIN,
Plaintiff,
vs.

Case No. 01CF006890
WILLIAM BRANSFORD,
Defendant:

DECISION AND ORDER DENYING MOTION TO VACATE JUDGMENT
OF CONVICTION AND ORDER A NEW TRIAL

On October 6, 2017, the defendant filed a pro se motion to vacate the judgment of
conviction and order a new trial pursuant to section 974.06, Wis. Stats., and State ex reL
Rothering v. McCaughtry, 205 Wis.2d 675 (Ct. App. 1996). Under Rothering, a defendant may
bring a claim under section 974.06, Stats., before the trial court alleging that postconviction counsel
was ineffective. The Rothering court indicates that the ineffective assistance of postconviction
counsel may be sufficient cause under State v. Escalona-Naranjo, 185 Wis.2d 169 (1994), for
failing to raise an issue previously.

Both sec. 974.06(4), Wis. Stats., and Escalona require a

defendant to raise all issues in his or her original postconviction motion or appeal, hr addition,
when arguing that postconviction counsel was ineffective for failing to raise the ineffectiveness of
trial counsel, a defendant must demonstrate that the claims he wishes to bring are clearly stronger
than the claims postconviction counsel actually brought. State v. Starks, 349 Wis. 2d 274 (2013);
reconsideration denied 357 Wis. 2d 142 (2013).
In his motion, the defendant argues that postconviction counsel should have argued that trial
counsel was ineffective for failing to request funding for a DNA expert to use at trial; that the

ApP^diXO

absence of a DNA expert prejudiced him in making a decision as to whether to accept the State’s
plea offer' that trial counsel’s erroneous advice with regard to the state crime lab analyst, Laura
Kwart, was a major factor in his decision not to accept a plea offer that he claims would have
limited his prison exposure to 30 years; and that had DNA expert Alan Friedman been hired, a
lesser sentence would have been imposed because he would have taken the plea offer. In essence,
he argues that he was not presented with sufficient information to make an intelligent and informed
. decision about the weight of the State’s evidence against him. (Motion, p. 3).
Strickland v. Washington, 466 U.S. 668, 694 (1984), sets forth a two-part test for
determining whether an attorney's actions constitute ineffective assistance: deficient perfonnance
and prejudice to the defendant. Under the second prong, the defendant is required to show '"that
there is a reasonable probability, but for counsel's unprofessional errors, the result of the proceeding
would have been different.'" Id. at 694; also State v. Johnson, 153 Wis.2d 121, 128 (1990). A
reasonable probability is a probability sufficient to undermine confidence in the outcome. Id. A
-

.

•

>

court need not consider whether counsel's performance was deficient if the matter can be resolved :
on the ground of lack of prejudice. State v. Moats, 156Wis.2d74, 101 (1990). "Prejudice occurs
where the attorney's error is of such magnitude that there is a reasonable probability that, absent the ,
. error, 'the result of the proceeding would have been different.' Strickland, 466 U.S. at 694
. State v. Erickson, 227 Wis.2d 758, 769 (1999).
The defendant was charged with one count of robbery - use of force, kidnapping (carries
forcibly), and six counts of second degree sexual assault (use or threat of force or violence). The
complaint alleged that he had approached a woman walking on Humboldt Avenue in the city of
Milwaukee around 12:30 p.m. on July 25, 2000 and began talking to her. He then pushed her down
a hill and went through her purse. She only had a dollar in her wallet, which he took, and he told

2

Vipr “T’m gonna haveyour pussy. I’m gonna fuck you.” He then began a series of attempts to enter
different orifices of her body with a non-erect penis, and after going through her purse'again to look
for more money, ultimately gave up and ran into the woods. The victim was unable to identify her
attacker, but the State Crime Laboratory got a direct hit identifying the defendant as the source of
the sperm fraction DNA recovered from the victim’s panties and anal swab as well as a swab from
the right side of her neck.
A jury trial was held before the Hon. Jacqueline D. Schellinger on April 15 - 19, 2002 and
April 22-23, 2002.1 On June 24, 2002, she sentenced the defendant to 12 years in prison on counts
one and two (consecutive to any other sentence), bifurcated into 8 years of initial confinement and 4
years of extended supervision; and to 24 years in prison on each of the sexual assault counts,
bifurcated into 16 years of initial confinement and 8. years of extended supervision, and all imposed
consecutive to any other sentence.

Postconviction counsel was appointed, and a motion for

resentencing was filed and denied by the Hon. Mary Kuhnmuench as successor to Judge
Schellinger’s sexual assault calendar. A notice of appeal followed, and tie Court of Appeals
affirmed the judgment of conviction and postconviction order on December 17, 2004. The main
v
issue for appellate review was whether Judge Schellinger should have considered the treatment
available under Chapter 980 to detennine the minimum amount of time necessary for confinement
at sentencing to rehabilitate him and protect the community, The appellate court upheld the
postconviction order, finding that there was no statute or case law which required a sentencing court
to consider the provisions of Chapter 980 when sentencing a sex offender and that it was “entirely

1 Exhibit G of the defendant’s motion is a letter addressed to trial counsel regarding a plea offer from the State. In
exchange to guilty pleas to kidnapping (carries forcibly) and one count of second degree sexual assault (use of threat
of force or violence), the State indicated it would move to dismiss counts 1,4, 5, 6, 7 and 8 and recommend 30 years
in prison — 20 years of initial confinement followed by 10 years of extended supervision.

speculative whether the defendant will meet the statutory definition of a sexually violent person at

f:

some future date.” (Court ofAppeals Decision, p. 3 dated December 17, 2004).
The defendant now contends that trial counsel should have hired. a DNA expert.
Postconviction counsel hired Dr. Alan Friedman, who submitted a report in 2003 concerning the
evidence presented in this case. The defendant essentially claims that if trial counsel had Dr.
Friedman’s report prior to trial, he would have approached his case in a different manner. In his
report, Dr. Friedman states that he found no issues with the quality of the crime lab’s work and that
the sperm fraction DNA profiles were very clear and unanimous that the defendant could not be
excluded as the source. Although the defendant conclusorily states in his affidavit that he would
have accepted the State’s plea offer had he seen the report of an expert prior to trial, these same
circumstances were not unknown to anyone at the commencement of the case. The complaint
itself stated that the defendant’s DNA profile, which was found on the-victim’s anal swab and
panties was “approximately 1 in 14 quintillion in the Caucasian population, 1 in 93 quadrillion in
the African-American population and 1 in 2.1 quintillion in the Hispanic population.” This
particular information as set forth in the complaint was provided by Daniel Haase from the State
Crime Lab,2 and Daniel Haase was listed as a witness for purposes of trial, so the defendant had
notice that this information was .certain to be conveyed by the State to the jury. Had Judge
Schellinger not allowed Ms. Kwart to provide the statistical information, Daniel Haase was
available for further testimony in this regard.3 In short, both the definitive findings of the State
Crime Lab, including its statistical evidence, was known from the very beginning. The defendant
nevertheless opted, to go to trial rather than take advantage of the State’s plea offer. The defendant
does not explain how or why Dr. Friedman’s report affirming the correctness of these findings
2 The court record shows that the defendant was provided with a copy of the complaint at his initial appearance on
December 31, 2001 as is required.
3 Trial counsel specifically reserved his right to further question him. (Tr. 4/18/02, p. 188).

4

u

t

would have made a difference when those findings were undisputable. These issues are not any

•%

stronger than the one raised by postconviction counsel after sentencing. See Starks, supra, and
State v. Romero-Georgana, 347 Wis. 2d 549 (2014).
Therefore, the court cannot find that any failure on the part of counsel to hire an expert,
specifically Dr. Friedman, prejudiced the defendant’s' case. In addition, counsel may have
provided his opinion to the defendant that Ms. Kwart’s statistical conclusions would not be
permitted by the court, but Daniel Haase from the State Crime Lab, as referenced in the
complaint, could easily have testified to the same statistical results of the DNA analysis
performed by Ms. Kwart in his office, and the same evidence would have been presented to the
jury. Further, defendant’s claim that trial counsel did not pursue any alternative theories of
defense is wholly conclusory in nature and completely without factual support to establish a
viable claim for relief. His claim with regard to the stolen shirt is entirely speculative, and there
is no evidence demonstrating that anyone other than the defendant robbed, kidnapped, and
sexually assaulted the victim in this case.
Because the court cannot find trial counsel ineffective with regard to the above issues,
postconviction counsel cannot be deemed ineffective. The defendant has not set forth a valid
. claim for relief.
THEREFORE, IT IS HEREBY ORDERED that the defendant’s motion to vacate the
conviction and order a new trial is DENIED.
Electronically signed by Carolina Maria Stark
Circuit Court Judge/Circuit Court Commissioner/Register in Probate

Circuit Court Judge
Title (Print or Type Name if not eSigned)

01/10/2018
Date

l

5

IN THE SUPREME COURT OF THE UNITED STATES
CASE NO.

WILLIAM BRANSFORD
Petitioner,
V.
DANIEL WINKLESKI,
Respondent
APPENDIX
On Petition For A Writ Of Certiorari To The United States Court Of Appeals
For The Seventh Circuit

Order of the United States Court of Appeals for the Seventh Circuit
Appendix A

,.Ci

Orders of the United States District Court Eastern District of Wisconsin,
Appendix B
April 23, 2019 Wisconsin Court of Appeal decision,
Appendix C
January 10, 2018 Circuit Court decision,

Appendix D

October 3 & August 9, 2016 Wisconsin Court of Appeal decisions
Appendix E
Trial transcripts of closing arguments from April 22, 2002
Appendix F
DNA Report of Alan Friedman dated October 24, 2003
Correspondence Attorney Erickson & Bransford
86 Fordham L. Rev. 1709
*»- \r

Appendix G
Appendix H
Appendix J

Direct Appeal Motions and Decisions

Appendix K

April 29, 2015 Wisconsin Court of Appeal decisions

Appendix L

Appendix {E~L^

.r-

Office of the Clerk

WISCONSIN COURT OF APPEALS
. IICLEasi-MaiN-S treei,JJuixe.215P.O. Box 1688
Madison, Wisconsin 53701-1688

•w

Telephone (608) 266-1880
TTY: (800) 947-3529
Facsimile (608) 267-0640
Web Site: www.wicourts.gov

*

DISTRICT I
October 3, 2016
To:
Hon. David L. Borowski
Circuit Court Judge
Milwaukee Comity Courthouse
901 N. 9th St.
Milwaukee, WI 53233

Kevin C. Potter
Assistant Attorney General
P.O. Box 7857
Madison, WI 53707-7857
Criminal Appeals Unit
Department of Justice
P.O. Box 7857
Madison, WI 53707-7857

John Barrett
Clerk of Circuit Court
Room G-8
901 N. 9th Street
Milwaukee, WI 53233

William Bransford 294774
New Lisbon Corr. Inst.
P.O. Box 4000
New Lisbon, WI 53950-4000

You are hereby notified that the Court has entered the following order:
2016AP553-W

State of Wisconsin ex rel. William Bransford v. Timothy Douma
(L.C. # 2001CF6890)

Before Curley, P.J., Kessler and Brennan, JJ.
On August 9, 2016, this court released an opinion and order denying a petition for a writ
of habeas corpus pursuant to State v. Knight, 168 Wis. 2d 509, 522, 484 N.W.2d 540 (1992) (to
bring a claim of ineffective assistance of appellate counsel, a defendant must seek a writ of
habeas corpus from the appellate court that heard the appeal). The pro se petitioner, William
Bransford, moves to reconsider that opinion,

The bulk of Bransford’s motion reiterates

arguments that we rejected or presses claims that we concluded must be raised in another forum.
«

Nothing in the motion to reconsider persuades us that we erred in reaching those conclusions.

ftpperuiix E

No. 2016AP553-W

Bransford’s motion also suggests that One Knight petition raised a claim that we did not
address in our opinion, specifically, that appellate counsel failed to pursue challenges to the
State’s DNA expert that trial counsel preserved by objection during the trial. We have reviewed
Bransford’s Knight petition in light of the motion. We note that, midway through an argument
that trial counsel was ineffective, Bransford asserted that trial counsel “made a challenge to the
testimony of [the State’s expert] concerning the statistical DNA data. This issue in and of itself
was stronger than the issue presented by [appellate counsel] on appeal.” We now conclude that,
although Bransford’s presentation of this issue was oblique at best, we should construe his pro se
petition as including a claim that appellate counsel was ineffective for failing to pursue
challenges to the statistical testimony offered by the State’s expert. See Lewis v. Sullivan, 188
Wis. 2d 157, 164-65, 524 N.W.2d 630 (1994)

(we liberally construe pro se pleadings).

Accordingly, we have considered the merits of such a claim. We reject the claim ex parte and
rt

deny the motion for reconsideration.
The transcript excerpts that Bransford supplied with his petition show that his trial
counsel urged the circuit court to reject the proffered expert testimony of the State’s DNA
analyst on the ground that
improperly addressed

the analyst was not a statistician and her testimony therefore

statistical probabilities of DNA matches she derived from an FBI

computer program. Relatedly, trial counsel complained that the analyst’s testimony lacked a
scientific basis because, according to counsel, the testimony did not describe the analyst’s own
work but instead related “what [the] computer tells [her].” Bransford evidently believes that an
appellate argument challenging the expertise of the State’s witness and the scientific foundation
for her testimony would have been clearly stronger than the sentencing challenge appellate
counsel pursued on appeal. See State v. Starks, 2013 WI 69, ^[6, 349 Wis. 2d 274, 833 N.W.2d
2

r,

A

No. 2016AP553-W

146 (to prevail in a claim that appellate counsel was ineffective, convicted person must show that
the issue counsel did not pursue was clearly stronger than the issue counsel raised). He is Wrong.
At the time of Bransford’s trial, expert testimony was governed by WlS. Stat. § 907.03
(2001-02), which “implicitly recognize[d] that an expert’s opinion may be based in part on the
results of scientific tests or studies that are not her own.... [The expert] need not have performed
the tests herself to form an admissible expert opinion based upon them, and [the appellant’s]
characterization of [the expert’s] testimony as something other than an expert opinion lacks
merit.” See State v. Williams, 2002 WI 58, f29, 253 Wis. 2d 99, 644 N.W.2d 919. Therefore, if
Bransford’s appellate counsel had pursued such an argument, it too would have been rejected as
meritless.
Moreover, the State’s expert was interpreting her results against given standards and, as
the circuit court explained in response to Bransford’s objections, that is a routine aspect of expert
opinion testimony. In a case involving the question of paternity, we explicitly held that medical
experts could testify about computer-aided test results. State ex rel. v. T.R.S., 125 Wis. 2d 399,
400, 373 N.W.2d 55 (Ct. App. 1985). In T.R.S., the appellant, like Bransford’s trial counsel
here, objected that “there was inadequate foundation for admission of [the experts’] testimony
concerning the computer calculations.” See id. at 401. We rejected that contention, explaining:
personnel in [the expert’s] laboratory fed test results from
conceded experts ... into a computer, and the computer calculated a
statistical paternity index. The computer report was merely a net
result of composite information fed into the machine. The medical
experts interpreted this report and relied on it, , as they routinely do,
as a partial basis for their opinions. The trial court did not abuse
its discretion in admitting the evidence.
Id. at 404.

3

M
No. 2016AP553-W

Bransford directs.our attention to the federal rules of evidence, and he reminds us that in
2011 the Wisconsin legislature adopted the standard that governs admission of expert testimony
in federal court, namely, the reliability standard set forth in Daubert v. Merrell Dow Pharttu,
Inc., 509 U.S. 579 (1993). He suggests that the testimony of the State’s DNA expert failed to
satisfy this standard. Bransford, however, filed his appeal in 2003, and Wisconsin did not use
the Daubert standard to determine the admissibility of expert testimony prior to 2011. See State
v. Giese, 2014 WI App 92, ^[17, 356 Wis. 2d 796, 854 N.W.2d 687. Any argument challenging
testimony in this case because it failed to comply with Daubert would have been frivolous.
In light of the foregoing, an appellate argument that the circuit court erroneously
overruled objections to expert testimony in this case would have lacked merit. Meritless claims
do not provide a basis for habeas relief. See Starks, 349 Wis. 2d 274, ^6.
. Therefore,
IT IS ORDERED that the motion to reconsider is denied.

Diane M. Fremgen
Clerk of Court of Appeals

4

\

v.:
< -

Office of the Clerk

WISCONSIN COURT OF APPEALS
rrOEASTlV[7an'STREET7SUITE'2TS“
P.O.Box 1688
Madison, Wisconsin 53701-1688
Telephone (608) 266-1880
TTY: (800) 947-3529
Facsimile (608) 267-0640
Web Site: www.wicourts.gov

v

DISTRICT!
August 9,2016
To:
Hon. David L. Borowski
Circuit Court Judge
Milwaukee County Courthouse
901 N. 9th St.
Milwaukee, WI 53233
John Barrett
Clerk of Circuit Court
Room G-8
901 N. 9th Street
Milwaukee, WI 53233

Kevin C. Potter
Assistant Attorney General
P.O. Box 7857
Madison, WI 53707-7857
Criminal Appeals Unit
Wisconsin Department of Justice
P.O. Box 7857
Madison, WI 53707-7857
^Timam Bransford 294774
New Lisbon Corr. Inst.
P.O. Box 4000
New Lisbon, WI 53950-4000

You are hereby notified that the Court has entered the following opinion and order:
2016AP553-W

William Bransford v. Timothy Douma (L.C. # 2001CF6890)

Before Curley, P.J., Kessler and Brennan, JJ.'
William Bransford petitions pro se for a writ of frabeas corpus, alleging ineffective
assistance of appellate counsel. See State v. Knight, 168 Wis. 2d 509, 522, 484 N.W.2d 540
(1992) (to bring a claim of ineffective assistance of appellate counsel, a defendant must seek a
writ of habeas corpus from the appellate court that heard the appeal). When a petitioner seeks
habeas corpus in this court, we follow the procedure for supervisory writs, and consequently, we
may deny the petition ex parte. See State ex rel. LeFebre v. Abrahamson, 103 Wis. 2d 197,
202, 307 N.W.2d 186 (1981). We deny Bransford’s petition ex parte.

No. 2016AP553-W

A jury convicted Bransford of eight felonies, including six counts , of second-degree
sexual assault, one count of robbery with use of force, and one count of kidnapping. The circuit
court ordered a presentence investigation report but, with the consent of the parties, ordered the
report sealed without reviewing it. The circuit court went on to impose an aggregate 168-year
term of imprisonment.

With the assistance of new counsel, Attorney Dianne M. Erickson, Bransford filed a
postconviction motion for resentencing.- The circuit court denied-relief and he appealed,
pursuing only the sentencing issue. We affirmed. See State v. Bransford, No. 2003AP3068-CR,
unpublished op. and order (WI App Dec. 17, 2004) (Bransford I). Subsequently, he pursued a
pro se postconviction motion to review his presentence investigation report, and we affirmed the
order denying the requested relief. See State v. Bransford, No. 2014AP1607-CR, unpublished
op. and order (WI App Apr. 29, 2015) {BransfordIT).
Bransford next, filed the petition for a writ of habeas corpus presently before this court,
asserting that Attorney Erickson was ineffective on appeal. We assess claims of ineffective
assistance of appellate counsel by applying the familiar two-prong test set forth in Strickland v.
Washington, 466 U.S. 668 (1984). See State v. Balliette, 2011 WI 79,1f28, 336 Wis. 2d 358,
805 N.W.2d 334. Under Strickland, a criminal defendant must show both a deficiency in
counsel’s performance and prejudice as a result.

Id. at 687.

To demonstrate deficient

performance, the defendant must show that counsel’s actions or omissions “fell below an
objective standard of reasonableness.”

See id. at 688.

To demonstrate prejudice, “[t]he

defendant must show that there is a reasonable probability that, but for counsel’s unprofessional
errors, the result of the proceeding would have been different.” Id. at 694. If a defendant fails to
make an adequate showing as to one element, the court need not address the other. Id. at 697.
2

J

V

h
No. 2016AP553-W

Additionali-Vy tQ-prey.afl--on--pQstconyiction-claiins,._a_defendant„must present more than
conclusory allegations. See State v. Allen, 2004 WI 106, 1[15, 274 Wis. 2d 568, 682 N.W.2d
V

433. Our supreme court has offered a “specific blueprint” for making sufficient postconviction
claims: “the five ‘w’s’ and one ‘h’ test, that is who, what, where, when, why and how.”
Balliette, 336 Wis. 2d 358, f59.
Finally, in the context of a Knight petition, the claimant must demonstrate that the
arguments appellate counsel failed to make are ‘“clearly stronger’ than the claims appellate
counsel raised on appeal.” See State v. Starks, 2013 WI 69, ^[56, 349 Wis. 2d 274, 833 N.W.2d
146. We respect counsel’s professional judgment “in separating the wheat from the chaff.” See
id., ^[60. With these standards in mind, we turn to Bransford’s petition.
We first consider the contention that Attorney Erickson was ineffective for not pursuing
an allegedly meritorious claim that, during closing argument, the prosecutor improperly
commented on Bransford’s failure to testify. To demonstrate the merits of claiming improper
prosecutorial argument, Bransford provides three pages of transcript that he tells us reflect the
“court record of closing arguments and defense motion for mistrial.” Our review reveals that the
excerpt includes the State’s purportedly objectionable remark, followed by defense counsel’s
objection, the court’s ruling, and a later discussion explaining the circuit court’s decision to deny
a mistrial.

Based on these supporting documents, Bransford contends appellate counsel

overlooked an argument .clearly stronger than the sentencing argument raised in Bransford I.
We reject the contention, for multiple reasons.
[F]or a prosecutor’s comment to constitute an improper reference
to a defendant’s failure to testify, three factors must be present: (l)-the
comment must constitute a reference to the defendant’s failure to testify;

3

i

No. 2016AP553-W

t

. (2). the comment must propose that the failure to testify demonstrates
. guilt; and (3) the comment must not be a fair response to a defense
, argument.”

::

State v. Jaimes, 2006 WI App 93,1J21, 292 Wis. 2d 656, 715 N.W.2d 669 (citing United States
•J

v. Robinson, 485 U.S. 25, 34 (1988)). Here, Bransford’s petition is insufficient to permit an
independent assessment of the third Jaimes factor. Because Bransford does not include the
transcript of the defense argument, we cannot determine whether the prosecutor fairly responded
to that argument. It is Bransford’s burden to support his petition. See Balliette, 336 Wis. 2d
■

;

\

— -r-M..-.-

—

358, %59.
Moreover, the portion of the transcript Bransford includes with his petition conclusively
shows he does not satisfy the first prong of the Jaimes analysis because the prosecutor’s
comment was hot a reference to his failure to testify. “Whether a prosecutor’s remarks reference
a defendant’s failure to testify is based on ‘ whether the language used was manifestly intended or
was of such character that the jury would naturally and necessarily take it to be a comment on the
failure of the accused to testify.’” Jaimes, 292 Wis. 2d 656, %22 (citations omitted). In this case,
Bransford’s trial counsel objected and sought a mistrial when the prosecutor argued: “[a]nd we
have evidence that Mr. Bransford’s DNA matches the semen found on [A.R.D.], And what we
don’t have is any explanation coming from the defense during his closing.'1'’

(Emphasis

supplied.)
As the plain text of the transcript excerpt shows, the State did not comment on
Bransford’s choice not to testify but on the substance of defense counsel’s closing argument. No
jury would think that the prosecutor’s observation about the content of the closing argument
referenced the defendant’s decision not to testify. Indeed, a prosecutor’s argument about gaps in
a defense attorney’s summation is a common form of attack and entirely appropriate. See State
4

V

No. 2016AP553-W

x.-IoJmsoji. 121 Wis. 2d 237. 246. 358 N.W.2d 824 (Ct. App. 1984). As the circuit court
explained when responding to trial counsel’s motion for a mistrial: “you didn’t have to give a
closing argument, but you did, and as a result, [the State] can say that, you know, you’ve

V

explained this is the way DNA works, but you kind of failed to explain something else.”
Accordingly, Bransford’s claim for a mistrial lacked merit.

Because the claim was

. meritless, appellate counsel was not required to pursue it further. No attorney is ineffective for
failing to pursue meritless matters. See State v. Toliver, 187 Wis. 2d 346, 360, 523 N.W.2d 113
•

(Ct. App. 1994).
We turn to the remainder of the claims Bransford raises in his petition. He asserts
Attorney Erickson failed to file a postconviction motion to preserve his claims that trial counsel
was ineffective, for: (1) not retaining a DNA expert; and (2) not insisting on a new presentence
investigation report before proceeding to sentencing.

Bransford also asserts that Attorney

Erickson should have sought review of the sealed presentence investigation report to search for
issues it might have revealed.. We will not address the substance of these issues because
Bransford raises them in the wrong court.
The rule is long-settled that a defendant who alleges ineffective assistance of trial counsel
must first raise the claim by postconviction motion in the circuit court to preserve the claim for
review in a direct appeal from a judgment of conviction.

See State ex rel. Rothering v.

McCaughtry, 205 Wis. 2d 675, 677-78, 556 N.W.2d 136 (Ct. App. 1996). Similarly a motion
for postconviction discovery must first be presented to the circuit court, not the court of appeals.
See State v. Ziebart, 2003 WI App 258, ^30-33, 268 Wis. 2d 468, 673 N.W.2d 369. Here,
Bransford claims Attorney Erickson should have filed a postconviction motion that alleged trial

5

No. 2016AP553-W

i

counsel was ineffective and that sought postconviction discovery of a sealed document. In
respect to these claims, his petition for a writ of habeas corpus therefore presses a claim that
postconviction counsel was ineffective for . failing to bring certain motions in the circuit court.
•j

See Rothering, 205 Wis. 2d at 679.
As the supreme court recently confirmed, “claims of ineffective assistance of counsel
should generally be brought in the forum where the alleged error occurred.” State ex rel. Kyles
v. Pollard, 2014 WI 38, p8, 354 Wis. 2d 626, 847 N.W,2d 805.. The rule controls unless the
forum in which the error occurred is unable to provide a remedy. Id. Here, Bransford identifies
errors that allegedly occurred in the circuit court when Attorney Erickson did not take the actions
Bransford believes were required. See Rothering, 205 Wis. 2d at 679 (“The allegedly deficient
conduct is not what occurred before [the court of appeals] but rather what should have occurred
before the trial court by a motion filed by postconviction counsel.”). He can pursue a remedy in
the circuit court by filing a postconviction motion in that forum pursuant to Wis. Stat. § 974.06.
See id.; see also Balliette, 336 Wis. 2d 358, ^[32 (“When ... conduct alleged to be ineffective is
postconviction counsel’s failure to highlight some deficiency of trial counsel in a [WlS. Stat. §]
974.02 motion before the [circuit] court, the defendant’s remedy lies with the circuit court under
either Wis. Stat. § 974.06 or a petition for habeas corpus.”). Accordingly, the circuit court, not
the court of appeals, is the proper forum for Bransford’s claims that postconviction counsel was

6

J

V
No. 2016AP553-W

?

ineffective for failing to challenge trial counsel’s effectiveness and for failing to seek discovery
of the sealed presentence investigation report.

V

1

Upon the foregoing reasons,

IT IS ORDERED that the petition for a writ of habeas corpus is denied ex parte, with no
costs to any party.

Diane M. Fremgen
Clerk of Court ofAppeals

1 Bransford may face barriers to his pursuit of relief in the circuit court. See State v. EscalonaNaranjo, 185 Wis. 2d 168, 181-82, 517 N.W.2d 157 (1994) (postconviction claims that could have been
raised in prior postconviction or appellate proceedings are barred absent a sufficient reason for failing to
raise the claims in the earlier proceedings). Nonetheless, the court of appeals is not the proper forum for
Bransford to launch his claims that postconviction counsel performed ineffectively.

7

\

i-

-S-T-A-T-E-e-F—W-tSee-N-S-I-N—:-eiRee-I-T-e©U-R'T-:--- M-I-tWAUK-E-E-e-00-NT-Y-

2

BRANCH 34

3
v

4

STATE OF WISCONSIN,
Plaintiff,

5

7

CASE NO. 01-CF-6890

v.

6

WILLIAM BRANSFORD
Defendant.

8
9
10

JURY TRIAL - CLOSING ARGUMENTS
*^CORRECTED PAGE 41 FROM TRANSCRIPT***

11
12
13

Honorable JACQUELINE D. SCHELLINGER, presiding.

14'

DATE:

APRIL 22, 2002
'APPEARANCES

15
16

PATTI WABITSCH, ATTORNEY AT LAW, APPEARED ON BEHALF

17

OF THE STATE.

18

LEW WASSERMAN, ATTORNEY AT LAW, APPEARED ON BEHALF

19

OF THE DEFENDANT.

. 20
21

GLORIA J. WEBER - COURT REPORTER

22
23

2-4
25

ApPOuHiX f
1

/

v

1

has stood the test of time.

2

where other emerging nations who choose to be free

3

decide that this is the kind of way that they want

4

their justice system to work.

5

important part of our history.

6

And certainly one

So you're an

We are so grateful to you for

7

everything you've sacrificed and for the tremendous

8

hard work you put in this trial.

9

jury room shortly to give you your final

10

instructions.

Please rise for the jury.

11

(Jury exits.)

12

THE COURT:

13
14

I'll be in the

Does the state have a

motion at this time?
MS. WABITSCH:

Yes, Your Honor.

15

for judgment on all eight verdicts.

16

for a remand of the defendant.

17
18
19

THE COURT:

All right.

I move

And I also ask

Thank you.

And

for the defense?
MR. WASSERMAN:

Your Honor, I move for

20

judgment not withstanding the verdicts.

21

like to explain why just briefly.

22

THE COURT:

23

MR. WASSERMAN:

And I'd

Please proceed.
In my view, this case

24

stands for the proposition that the state can offer

25

conclusions concerning the identity of the
31

1

defendant based upon DNA without offering in any

2

way, shape or form the basis for those conclusions,

3

except in the most cursory and conclusory fashion.

4

There's a complete and utter lack, in

5

my view, on the part of the staters case in

6

presenting to the jury the actual scientific basis

7

that if any existed for the expert's conclusion

8

that the DNA profile obtained from Mr. Bransford

9

matched the DNA profile obtained on July 25th,

10

2000.

11

bank that led to the preliminary match.

12

this amounts to, in my view, is insufficient

13

evidence.

And ultimately apparently put into the data

14

So what

Now, I'd like to explain something just

15

very briefly because I think it's important for

16

those that are obviously now going to have to read

17

this record.

18

challenged pre-trial.

19

That is my question why this wasn't

Well, you may have noted during the

20

course of the trial I come in here with three

21

fairly thick folders.

22

contained not only the protocol that the state

23

provided to me but all of the work, if you will,

24

that was put down on paper done by the expert Laura

25

Kwart.

Two of those folders

And by expert I mean generically the kind
32

1

of work that she does.

2

everybody else connected with this case.

3

And by Daniel Huss and

So I anticipated and I thought that the

4

record explained this.

5

the nature of the subsequent challenge is clear, I

6

did not challenge you on pre-trial because I had no

7

discovery issue.

8

my analysis of what the state crime laboratory did

9

or didn't do.

But just to be certain so

I had what I needed in terms of

What was so vexing for me at trial

10

was that none of it ever got presented.

11

it.

12

None of

The other thing that made it so vexing

13

in trial is Laura Kwart was virtually unable, in my

14

view, to discuss the basis for her conclusions

15

other than to say that she fed numbers into a

16

computer and got numbers out of the computer.

17

So I didn't challenge you pre-trial,

18

because again, I had no discovery issue.

19

wasn't it.

20

So that

And normally the basis for presenting

21

DNA evidence you think might be challenged

22

pre-trial.

23

handed in discovery, I didn't see any basis for

24

challenging the admissibility.

25

But again, based upon what I had been

By challenge during the course of the
33

1

trial and made it the close of the trial, both at

2

the close of the state's case and the close of the

3

defense case which is virtually simultaneous.

4

I'm making it here again today.

5

the state is required under fundamental due process

• 6

And

Is that in my view

and the defendant's Sixth Amendment right to see

7

the evidence that is going to be used to try to

8

convict him.

9

But all he saw here were conclusions;

10

And that might be okay in an ordinary

11

identification case.

12

me that there's no credible evidence other

But in this case it seems to

/

13

potentially than that of the DNA.

14

If the DNA had not been a match, there

15

would have been no case.

16

There was no identification.

17

There was no credible
We all know that.

Despite the state's urging to the jury

18

to compare a composite or the booking photo, that

19

would not have been sufficient.

20

a DNA case.

21
. 22

So this is clearly

So my challenge during the course of
the trial was to the fact that the state failed to

23

present any of the bases for its expert's

24

conclusion.

25

challenge.

And that will be the subsequent

34

4

1

I think this case ultimately will stand

2

for the proposition that yes, they don't need to or

3

they did sufficiently in this case or they do need

4

to.

5

on

6

insufficiency of the evidence.

But my challenge to this verdict is based
I think categorically I have to call it

7

But so it's clear, obviously in my view

8

the testimony -- the conclusion offered by Miss

9

Kwart I'm not saying and I don't think I could make

10

the claim that her conclusion by itself is

11

insufficient evidence.

12

y'

But the point is, is that I -- I think

13

it's clear, and it's clear from other

14

jurisdictions --

I'll let the next counsel do that

15

formal briefing.

But before that conclusion can be

16

presented, that there must be a sound, reliable,

17

scientific basis for it.

18

So this is not another Daubert

19

challenge, but the science must be reliable.

20

in my view, you had nothing before you but naked

21

conclusions.

22

from naked conclusions the reliability of the work

23

underlying that scientific, again, categorically

24

scientific conclusion.

25

And

And one- cannot assert or ascertain

And so for that reason, I make the
35

1

motion for judgment not withstanding the verdict

2

based on sufficiency of the evidence, for all those

3

reasons that I've stated.
S'

4

THE COURT:

5

MS. WABITSCH:

6

THE COURT:

Do you wish to be heard?
No.

Until just recently, DNA

7

evidence if there had been compliance with notice

8

requirements pursuant to statute, really needed

9

virtually no sponsoring witness.

Arid it's a glitch

10

in the law that somehow that statute has been

11

affected.

12

But it really doesn't have any

13

application to this case except to make it very

14

clear that the State of Wisconsin has such faith in

15

the reliability of DNA evidence that there was a

16

statute that did allow its admission into the

17

record really without regard to any testimony,

18

regarding its scientific underpinnings.

19

This is a case that presents itself in

20

the State of Wisconsin which is not adhered to the

21

Daubert standards.

22

need to be shown in terms of the underlying premise

23

for which DNA evidence is admissible into the

24

record.

25

Therefore, reliability does not

The state did prove the three things
36

1
1

that needed to be proved in order for an expert to

2

testify regarding DNA.

3

accepted the testimony into the record of Miss

4

Kwart who testified by -- from the state crime

5

laboratory that after testing samples of what

6

appeared to be semen from the crime scene, she made

7

an analysis using generally accepted practices and

8

came up with a DNA profile.

9

And for that reason, I

She then said that she. took the known

10

tissue sample from Mr. Bransford and she, using the

11

very same protocol and practices, came to a

12

conclusion regarding the DNA profile of

13

Mr. Bransford.

14

They matched perfectly.

And I know it is the defense position

15

that because of her extrapolation of conclusions

16

based on a computer-generated report to her that

17

' another person, having the very same DNA in the

18

Caucasian population, would require the assembly of

19

more than a klintilion of people.

20

extrapolation came from an analysis of 200 people.

21

That somehow that must be flawed.

22

That would have

And that that

That would cause

23

the court,

24

there's something so inherently flawed with using

25

200 people,

I suppose, to have to Conclude that

for example, and just that one segment
37

n
1

of the statistical probability conclusion to say

2

that that evidence is incompetent.

3

The defense has no duty to call any

4

witnesses in this case, but nobody prevents that

5

from occurring.

6

something that required competing experts and there

7

was somebody else that you wanted to call, that's

8

certainly something you could have done to impeach

9

Miss Kwart.

If you thought that this was

And that is exactly what the case law

10

in the State of Wisconsin guarantees.

11

system of responding to reliability challenges like

12

the ones you are currently making exist.

13

That our

In addition to that, you have the right

14

to impeach the witness just the way you did.

15

asked her several questions that she wasn't able to

16

answer.

17

anything wrong with the evidence.

18

she wasn't able to explain the underpinnings of why

19

200 people, for example, make an appropriate

20

statistical sampling.

21

fact that those people are not related, even though

22

she doesn't know to what degree they have gone back

23

into the histories of those persons to determine if

24

they weren't in fact related.

25

You

But that doesn't mean that there was
It means that

And that she realizes on the

It is true that this verdict is based
38

1

on the scientific evidence which does not have in

2

this record an explanation for how the kit that she

3

used, for example, to test the DNA of the defendant

4

and of the unknown person who left semen at the

5

scenes, it doesn't -- we did not get evidence that

6

explained why DNA evidence is tested the way that

7

it is, not the exquisite extent that we could have.

8
9

But I also think that expert testimony
is intended to aid a trier of fact if it does.

And

10

there's a point in time where getting into the kind

11

of biogenetic detail that would provide the

12

underpinnings for such testing to be occurred --

13

to occur and then to receive into evidence

14

eventually loses us all because it is so esoteric.

15

And then it no longer aides the trier of fact.

16

I think that a good point was made by.

17

the prosecution during closing argument, and that

18

is that even though in your closing argument you

19

said that just because a person might have a

20

bachelor's degree and would go to several seminars

21

that would be offered by medical schools for

22

several years doesn't make that person a physician.

23

And in response to that, the

24

prosecution said that these physicians who take on

25

sort of an exalted position as a result of their
39

1

being used analogously in their argument to the

2

lack of science, which in spite of training which

3

was ascribed to Miss Kwart, the state asked this

4

jury to understand as a matter of their common

5

knowledge that just because a physician may rely on

6

a MRI scan in coming to a determination doesn't

7

mean that a jury who listens to that physician's

8

conclusion has to have the physician explain

9

precisely how the MRI scanner is constructed, how

10

it works and why it's reliable.

11

absolutely right.

12

And she's

The other thing that makes this

13

evidence something extraordinarily reliable in this

14

case is that even though in your cross-examination

15

of Miss Kwart and your argument to the jury you

16

attacked the reliability of her findings, because

17

failure to understand exactly how DNA is assessed

18

in terms of taking those 13 genetic markers as

19

opposed to any number of others, and why the

20

certain numerals were; assigned to describe that

21

difference between one person and another,

22

including within their own DNA makeup, the

23

difference between their

24

their mother and from their father.

25

clearly wasn't able to explain all of that.
40

the contribution from
And she

1

But what is really hard to explain then

2

is how if she is so impeachable, why was

3

Mr. Bransford in a databank where she wasn't the

4

person who did the DNA analysis but some other

5

person did do DNA analysis when Mr. Bransford

6

became a felon.

7

result of his legal obligation to do so.

8

DNA analysis resulted in precisely the same

9

conclusion.

10

And he had to give a sample as a
And that

And it almost seems like it's

11

expedientially impossible for Miss Kwart to come up

12

with a conclusion she came up with twice and have

13

them match something that some other entity, by

14

some other whether it's a technician or a scientist

15

also did.

16

This verdict in all respects appears to

17

have been based on the rational examination of all

18

the evidence in this case.

19

evidence that was presented at this trial was

20

competent and a jury came to a conclusion beyond a

21

reasonable doubt that as to all 12 -- all eight

22

charges that the defendant is guilty.

23

I do find that the

At this time the court enters a

24

judgment of conviction with regard to count one,

25

robbery, use of force; a judgment of conviction
41

1

with regard to count two, kidnapping; a judgment of

2

conviction with regard to count three, sexual

3

assault in the second degree; judgment of

4

conviction with regard to count four, sexual

5

assault in the second degree; judgment of

6

conviction with regard to count five, sexual

7

assault in the second degree; a judgment of

8

conviction with regard to count six, sexual assault

9

in the second degree; a judgment of conviction with

10

regard to count seven, sexual assault in the second

11

degree; and a judgment of conviction with regard to

12

sexual assault in the second degree, count eight.

13
14

MR. WASHERMAN:

May I state just one

thing for the record?

15

THE COURT:

16

MR. WASSERMAN:

Yes.
I just want to make it

17

clear we are not abandoning the challenge to this

18

court as an expert in the field that she claimed

19

her expertise.

20

be understood by the court --

I thought that was --

21

THE COURT:

22

MR. WASSERMAN:

23
24
. 25

It seemed to

I do.
-- that that was part

of our challenge.
THE COURT:
understand that.
42

Absolutely.

I do

1

MR. WASSERMAN:

2

just because I never -- now something was said

3

twice that I haven't had a chance to respond to.

4

THE COURT:

The thing is we're not here

5

to debate this.

6

made it three times now.

7

this issue is preserved for appeal.

8
9

You've made your record.

You've .

And I assure you that

At this time the defendant is remanded
into the custody of the sheriff.

There will be a

10

presentence investigation that will be conducted,

11

including an analysis as to what the department of

12

corrections would consider the appropriate sentence

13

to be under the circumstances.

14

date for return.

15

five weeks, unless the defense intends to also do a

16

private presentence.

17

r

And the other thing is

We'll give you a

And that will be in approximately

MR. WASSERMAN:

Well, I'll discuss the

18

relative advantages and disadvantages of that with

19

my client.

20

sure that it's available to all the parties and the

21

court at an appropriate time.

22

time.

23

If we're going to do that, we'll make

THE COURT:

I don't need more

I just want to make sure

24

that the time we set is appropriate, because I

25

don't want it.delayed again.
43

Six weeks enough?

n
1
2

MR. WASSERMAN:

That's fine.

That will

be plenty of time.

3

THE COURT:

Thank you very much.

You
•

4

both did quite an excellent job in this case.

5

of your closing arguments were really very

6

compelling.

7

MR. WASSERMAN:

Judge, thank you.

Both

But

8

every physician I've ever known can tell you how an

9

MRI works.

Everyone.

10

THE COURT:

11

MR. WASSERMAN:

12

All right.
Everyone.

met one that did not.

13

THE COURT:

14

(Off the record for date.)

15

THE CLERK:

16

I've never

All right.

June 24th at 8:30 for

sentencing.

17

<:><:><:><:>

18

(Proceedings concluded.)

19
20
21
22
23
24
25
44

Thank you.

i

LLotejJ,,
MOLECULAR FORENSICS

'

.'

• , / -1 .. .-.

•r

"’

' 2821 NlFburth St *.'
.................................................................................................................................................................................................................

‘ - Suite 226

T*

-

/••

Milwaukee, WI 53212

-y-y:
' ■

.

/;•

■ ■

-

■

-*.

■:

i

.

'

;: »
’414:263,2024 voice!

■

October 24, 2003

414.227.4152 fax
e-mail:

Dianne Erickson
Wasielewski & Erickson
1442 N. Farwell, #606
Milwaukee, WI53202-2924

helix@execpc.com
Paternity &
Forensic Testing

Re:

WI v. William Bransford

Consulting

Dear Ms. Erickson,

/

Enclosed, please find my final report, time sheet and invoice in the Bransford case. I
apologize for not finalizing this report sooner. I have included an SPD voucher for
experts and I would appreciate your submitting it as soon as possible.
As I told you on the in our phone conversation, I did not find any issues with the quality
ot the crime laboratory’s work. Of the evidence tested, the sperm fraction DNA profiles
from anal swab and the panties seemed to be very clear and unanimous. Mr. Bradford
could not be excluded as the source of these DNA profiles. The swab on the right side of
the neck and right hand nail scrapings were mixtures of at least two individuals. Mr.
Bradford could not be excluded as being the major contributor to the neck swab. The
DNA profile of the minor contributor to nail scraping was incomplete, with Ms Drost
being themajor contributor. The DNA profiles from the other evidence (sperm fraction
of vaginal swab, blood stains on two $1 bills, upper arm swab, left hand nail scraping)
were all consistent with having come from Ms. Drost.
As for the trial transcript, as a DNA expert, I didn’t find any problems that would indicate
ineffective counsel. Mr. Wasserman raised a range of issues having to do with Ms.
Kwart s qualifications to offer statistical evidence, validity of the statistical methods
adherence to laboratory protocol, and admissibility of the evidence. I don’t think Ms*
Kwart came off looking very knowledgeable. She sounded more like a technician. ’
following recipes rather than a professional forensic expert. Nevertheless, I think her
testimony was correct (save for a few trivial errors). I thought the judge showed a very
good understanding of the science and case history and made a very strong record.
^°^^dditi0nal questions or wish t0 discuss this case further, I can be reached at
41.4-26j-2074.
Sincerely,

A -- f—Jr
Al««

tt~: ~ J___

T»i_ r\

Or

l

(
;

.

helix t i o t e c L,
it

•;

DNA Case Review
■■■

'•■•■

.■•’•>

'

V

'

MOLECULAR FORENSICS

:-'L

‘

' Hr

w;

•

.-■

2821 N. Rjurth St '. '

1.''

State of Wisconsin v. William Bransford
T

;-v-

. Suite 226-

v Hc^con^ State Crime Lab No:'R00-2592

"V

.., Milwaukee, Wl 53212

V

Suspect:

William Bransford

.

-

’

-

..V

">-v

.

. -

. , >v. '

• ;•*

414:227.4152 fax

Alleged Victim:

Abby-Rene Drost

e-mail:
helix@execpc.com

Materials Reviewed:
1. Laboratory Findings (DNA) Report, October 3,2000

• Paternity &
Forensic Testing

2. DNA Databank Report, December 14 2001
Con suiting

3. Supplemental Report, January 17,2002
4.

srirsarx1?""*--

5. Transcript from WI v. William Bransford, Case No 01
-CF-6890, April 19,2002,216
pages
. -=->?•

Case Review Findings

Review of Laboratory Findings
weredhTexStaS„fKaWarttShn0trS

K“PP^

would have
not

and °™1 swabs (items F and G), fluid matter found in the lower vestibule fitem

KSSp"

areola (kem L)

.

" C vl..

^

(item °* tWO j> Mls 0*“ AA and AB).

“PP ^ are0h (i,em K): SWabs from left “Wle and

Page 1 of 5

-i

-

Bransford Case Review
V;

-1'

V .*..,

-

"testeapositive tor AP.

#W.

-.v--

vf-f-''

' ;a

Stains containing
. semen weresuWectedtodi£ferentiaDHAextractioaresuitinginanonS|,C,r!”."1 ?:md SP“'''Differential DNA extraction Is a,, enrichmmtprocedure
and u .» not uncommon to find uen-spenu DNA in thesporrofracihra.especial!) 4cn lam
amounts of the victims DNA is present in the sample. Blood stains, swabs from the neck §e- tmgemails, and aim were subjected to a single DNA extraction.
The sperm fraction DNA from the panties (item.Y-f2) and anal swab (item H-f2) w
as from a
single source and was foreign to Abbey-Rene Drost and Aaron J. Branski.
10 iS2^Aw-ufile *as“mP.ar“110 ^ Convicted Offender Index (database). On December
10, 2001, William H. Bransford was identified as a match. This is considered an
mvestigativeTead. A buccal swab was obtained from Mr. Bransford and profiled by Ms
Kwart. Mr. Bransford could not be excluded as the source of the sperm fraction DNA ‘
recovered from the panties and anal swab (items Y-f2 and H-f2).
The swab from the right side of the neck yielded a mixed DNA profile. Mr. Bransford could
not be excluded as the major contributor to this mixture.

Thf °™A proflIes from *e va§inal swab sperm fraction (item E-f2), dollar bills (items AA
anf,AB)’ Upper
swab (item O) and left and nail scraping (item U) were all consistent
with having come from Abbey-Rene Drost.
Transcript Review
^d^eCnX^inaht-i0n °fth? StatGS °NA expert’ Laura Kwart seems fairly routine up though
p ge 36. Qualifications evidence examined, procedures followed and conclusions reached
On page j6, Ms. Wabitch asked: Statistically speaking, what is the possibility that there
would be another person who’s DNAprofile would match the profile that you have. Mr
Wassennan objects to the form of the question stating that the question is not the same as
according to accepted physical analysis methods. Although the objection was sustained
hmk the question was close to correct. I would have asked about the probability rather ,1
than
the possibility. There are two parts to any DNA analysis: 1. does the evidence match a known
reference sample? (from the defendant, victim or some known third party) and if so, 2. what
chanceafone?0^ ^ &
md unrelated ^dividual might have this DNA profile by
Upon rephrasing the questions, Ms. Kwart stated that she used a computer program to
evaluate the statistics. I thought this was a weak answer. She is an expert who uses the
computer program as a tool but should understand the statistical procedures that underlie the
Page 2 of 5

;>v:

V:

■ >-c

.•>.;

>

Bransford Case Review

: program;..
calculate ,.,e random maich

.'}v

u»J studies to

.

Onpage 42-43 the judge used th
(away fir
sample collection, transportation, storage or
« was not present at the crime scene prior to
the FBI program fo! calculatin^DNA
program ls like Norton Anti-virus that needs to be

tesfri;

^ reSUIts of P°PSTATS,
argUCS that the statistics

mis is a fundamental concept in statistics.

sample mean

exclude^r ra™ %7iZ coSer ” The S“ ‘ft °Wer ^Patemlty methods did not
whether a profile can be unique. In patemitv wTTT
that was Abated in chambers is
excluded as the father and calculate (using the sameTanf^T? ^tCSted man can not be
father as compared to a random man ofThe ZneTace
t **ldcdihGod that he * the
forensics we calculate the likelihood that the evident * It* patermty mdex)- & criminal
compared to a random and unrelated individual When ^ &°™some ^ individual as
small (1 in a very large number) that th,- c
’ A?*en does the likelihood ratio become sn
the 1996 NRC1 study on DNA evidence (tB^Tc^^rorm11191167 This WaS addressed in
recommendation was made, the panel coneMed thT t
^ AIthough no
upheld by the WI Supreme CmoXTS °r ' ”<I*®"- ^ Procedure vT*'
Su‘a,e "S^com,n v. Iran tunll^TZ
0/fCte No. 99hkehhood that a primary relative will have the same nffT^’ “ s!10uId be noted Oku the
instance, the likelihood that two brothers would Ta P S-!f1S considerably more likely. For
Jlhon; improbable but not unique according to the^Sf'6 * °
“ 1 ” 67
aafa,™f

deak ™‘h paternity index versus

Statistics) which as no relevance to the Le ofLtisttef 0naPn°r Probability (Bayesian
is a much higher degree of uncertainty in^atemfT w
“thlS Case‘ Furthermore, there
single allele at each locus, the obligate paternal allele wLSU1? T *** 0nIy concemed with a
(most criminal cases) both alleles must be present te the^
Img With transfer evid^e
match to be declared.
present m the evidence as well as the
suspect for a
Science; James Crow,

ewdence. Committee on DNA Forensic

Page 3 of 5

:'
;

■ty-'V

. Bransford Case Review

■ Wobftn genetms and

^ KwS

Pledge (,f........

populano?fnefc °f thep-BI sampling nmthod '"aio!”'»«««m„,,(, the
• ■'. ■

’-

- ■ quadrillion
■'■

•■

-.

■'•

■

:

■"•>■■■•■. ■ k^ttallion-ha&yj-:
.'"'V. ■

■.

••

• ■•

■

-

"-

Ms. Kwart
nome„cIatl^e“m°n^m page 114; in 1987 a system of
‘nd,cates that the locus is found on ch-omTP To’ D3S1358^ Stands for DNA-fiie J
-d ,358 designates this locus as the 1,358“ Zrt o^ZZ^ “ " ^
!ocConclusions

=Vp:=SHr»7^^rmt2ZWsT
not “e into account
s issue was resolved in
examination oftheltatesDNA expert ^“w*Vasserman did a good job in his cross

acceptance by the scientific community (Frye)

1018 fr

IeVance’ lability (Daubert) or general

nr—uuuuuh ui me populatio

&2gvS3a&&&£S2sa£&
common, as
Cytogenetics and CenGe^t!^^!;?

N“th IntemationaI Worksh
op on Human Gene Mapping. 1987-

Page 4 of 5

r‘-

.:c'.

I

Bransford Case Review

;;

umber
;

•‘V

• • 1
•

:

■

•

.,v •-

V;

;•

:

■

\

^

i':
-

N.

::

: •. ■

■■

'.................

:

.'

•

•

•

Reviewed by:

Da
2821 N. Fourth St., Suite 226
Milwaukee, WI53212

Page 5 of5

i?c£>3

'

vi.v..

i

1
DNA Profile Assignment from ABI 310 D
ata in Bransford Case
Profiler
D3S1358
Abbey-Rene Drost
Aaron J. Branski
William Bransford
right side of neck swab

I

underpants-sperm fraction
anal.swab-sperm fraction
right hand nail scrapings
vaginal swab-sperm fraction
dollar bill
dollar bill
upper arm swab
left hand nail scraping

D
AF
AG
J
Y-f2
H-f2
V
E-f2
AA
AB
O
U

17.18
16.18
15,17

vWA
18
18,19
16

■15,17(18)
1-5,17
15.17
17,18(15)
17.18
17,18
17,18
17,18
17,18

16(18)
16
16
16,18
18
18
18
18
18

FGA

Amel.

D8S1179

D21S11

D18S51

25,26

x

21.24

x.y
x,y

9.13
12.13
14

30,31.2
30,31
30,31

16,17
16,20
11,13.2

14(9,13)
14
14
9,13,14
9,13
9,13

30,31(31.2)

11,13.2(16,17)

30,31
30,31
30,31.2(31)
30,31.2
30,31.2
30,31.2
30,31.2
30,31.2

11,13.2
11,13.2
16,17(11)
16,17
16,17

23.25
23,25(26)
23,25
23.25
25.26
25,26
25,26
25,26
25,26
25,26

x(y)
x,y
x,y
x(y)
X

x
x

9.13
9,13
9,13

X

x

16,17
16,17
16,17

12,13

10,13
9,11

10,12
9,10
10,11

H.12
12

12,13

12
12(13)
12,13

12.13
10.13
10,13

10,11
10,12
10,12

12,13
12,13

10,13
10,13

10,12
10,12

Cofiler

Abbey-Rene Drost
Aaron J. Branski
William Bransford
right side of neck swab
underpants-sperm fraction
anal swab-sperm fraction
right hand nail scrapings
vaginal swab-sperm fraction
dollar bill
dollar bill
upper arm swab
left hand nail scraping

D
AF
AG
J
Y-f2
H-f2
V
E-f2
AA
AB
O
U

D3S1358 D16S539
17.18
8,13
16.18
12,13
15,17
11,13
15,17(18)
15,17
15,17
17,18(15)
17,18
17,18
17,18
17,18
17,18

11,13(8)
11,13
11,13
8,13(11)
8,13
8,13
8,13
8,13
8,13

Amel.
x
x,y
x,y
x(y)
x,y
x,y
x(y)
x
x
x
x
x.

TH01
8

6,9
7,9
7,8,9

7,9
7,9
8(7,9)
8(7)
8
8
8
8

TPOX
8,11
8
8,10
8,10(11)
8,10
8,10
8,11
8,11
8,11
8,11
8,11
8,11

Page 1 of 1

CSF1PO
11
10,12
7,11
7,11
7,11
7,11
11
11(7)
11
11
11
11

10,12
9,10
10,11
10,11(12)
10,11
10,11
10,12
10,12(11)
10,12
10,12
10,12
10,12

i

r

l!

i

Was ie I ewski _& E ri cks on
ATTORNEYS AT LAW

1442 NORTH FARWELL AVENUE
SUITE 606
MILWAUKEE, Wl 53202

(414) 278-7776
JOHN T. WASIELEWSKI
DIANNE M. ERICKSON

October 22, 2002
Mr. William Bransford
Columbia Correctional Institute
P.O. Box 900
Portage, Wisconsin 53901-0900
Re: State v. Bransford, 01 CF 6890
Dear Mr. Bransford:
Mike Marshall telephoned to ask for permission for you to call me. He is sending
me a form. While, you certainly may telephone, I want you to know that at this
point, I have no transcripts. The court reporters will have until about December 8
or 9, 2002 to prepare the transcripts. Then they will send them to me. After that, I
have sixty days to examine them.
Just keep that in mind as you are hying to communicate about your appeal. You
may also write to me, and you should do so immediately if there are any witnesses
that my investigator could interview. Such persons would include those who were
not called at trial and who you have reason to believe are making different
statements.

Sincerely,
/
J

Dianne M. Erickson

App«v*.* H

►

Wasielewski & Erickson
ATTORNEYS AT LAW

1442 NORTH FARWELL AVENUE
. SUITE 606
MILWAUKEE, Wl 53202

(414) 278-7776
JOHN T. WASIELEWSKI
DIANNE M. ERICKSON

October 29, 2002
Mr. William Bransford
294774
Columbia Correctional Institute
P.O. Box 950
Portage, Wisconsin 53901-0950
Re: State v. Bransford. 01-CF-6890
3

Dear Mr. Bransford:
I think perhaps our letters crossed in the mail. At this time, I cannot comment on
the merits of the appeal nor on any issues until I have reviewed the traiiscripts.
Since the court reporters do get sixty days to prepare the transcripts, and then I get
sixty days to review them, I am likely to have nothing coherent nor intelligent to
say about the case for four months. At present, I know nothing about it.
Why do you feel that Laura Kwart should not have been allowed to testify? When
you answer, please do not present a lot of statute numbers. These are meaningless.
Just tell me what it was about her testimony that you felt was unfair. Please start
by letting me know what she said.

Sincerely,
c

%C

Dianne M. Erickson

\

lb.

_______ :______ NovtmbtR 5 ZQQ2^
m\_SU1be_ i/. hn^Far^L oi lf Mid

/

H

!

rDfoffU Wf&> f. MU'JaM I

Jt IlMWitti

MM httbuj. 7f. Jukji j nun i
fcl JrdaArdnM^Lf//j jfe^Wcf4t/€d/y.
J

♦

f

& M-junf) MWAJ L
<mJ jhbj
fiMf AMiiAKO^MJiMJ CU

ZJ 1666.1 hi
ffitt. OLiwi 6t. Ma'fJWlO.
&

:■>*?

d '(4mL.) lb. '3 W-6 2X6,: 1fla.il.
ll^f)...
• •••*

•

- ■J-Sy+S

''ll- K

«

-c

Ji3
.jf vJdt/) / j

v

XL&j ML
Wlj

/

UmaJ

•ytj

*

—j

Via
km

ZiUlZ.

T*

cmJ AUHJU
./

-*>5

a

7.

l&t,/ ■:*!
•»

5,
’■

'MM ,r

.,* .... ---- ....... ■. ^- . -

•*.
. i

i •

Kh

■ --- --------. ~ ~ i.----mzA) AjUd^^O.
V? - . -

i

' •>>:
/*»:• '■A Jfz/bm
'r:

• - :v

tM--*

'■*

vT

~v^i

•y

2j

■w

:•*

■w

'•*

■f-

a
>
:
•••i

01

kj

muiiiU

r>
jm) CMudb, Jt

MA/ttfwU
Hi
/'»

r

]JL

cu

UMAJ JjJuck j 3, aiMh'
V

WmM\ mayUj mij ik/Laf)
KuJdJlij jm) CU nnfWJLj l

<
?■

t (L
tu&MUf,
. I

< -i

dUJUXJ

I

)

7 35 fltnlk.i lUodln j UmL

f-

*

r

i.

tiumjCJUJ&). 'P.todm&i /z^VrtjjiJtiaiusilojiJtij jjjlJh JtLnZ1
>$ ArnJU

A

'

'

1

'

'

'’

■■'•

. V
|

,•

i

%

&

,'j

.

/:;/.
¥■
t'i
JJJb

:
J*v
”

;. <

■

4->

■**

T

V'

p

f' t

■

f-,

*

t±

• r-*

'[li-v

.-•
>
y^r~~

i. '

rf
L

,;

,'

.

mm
&

■:

-• \ ..

:+ '

. **

-•_

....

•■

.

.V

v

.>

•:• •• •:
:

]

;

Tv

'• i

s

J/.
T

;,

>\

' -&

•r

?-

i

'
'St
TT

.......... .r»i
• i.

•. :>

"7^

Wasieiewski & Erickson
ATTORNEYS AT LAW

1442 NORTH FARWELL AVENUE
SUITE 606
MILWAUKEE, Wl 53202

(414) 278-7776
JOHN T. WASIELEWSKI
DIANNE M. ERICKSON

March 25, 2003
Mr. William Bransford
294774
Columbia Correctional Institute
P.O. Box 900
2925 Columbia Drive
Portage, Wisconsin 53901-0900
Re: State v. Bransford, 01 CF6890
Dear Mr. Bransford;
The court reporter who has many of your transcripts is on a medical leave. She
appears to have worked in Judge Schellinger’s court. There is some courthouse
information that indicates that following a traumatic shooting in the courtroom,
those who worked there have suffered from the stress of the incident. I am not
sure whether that applies to the court reporter.
I will attempt to find out about her status. After that, I will review the record to
determine whether legal errors exist. Without being able to review the record, this
is hard. Just now, I was not been able to get anyone at the court to answer the
telephone; reserve judges have been in that courtroom now for several months.
Should the court reporter’s incapacity be permanent, someone will need to type
from her notes, if possible.

Sincerely,
----------------’

Dianne M. Erickson

Wasielewski & Erickson
ATTORNEYS AT LAW

1442 NORTH FARWELL AVENUE
SUITE 606
MILWAUKEE, Wl 53202

(414) 278-7776
JOHN T. WASIELEWSKI
DIANNE M. ERICKSON

; June 5, 2003
Mr. William Bransford
Columbia Correctional Institute
P.O. Box 900
2925 Columbia Drive
Portage, Wisconsin 53901-0900
Re: State v. Bransford, 01CF006890
Dear Mr. Bransford:
I am reading the trial transcripts and have no doubt that I will finish within a few
days. I will be seeking an extension because the Columbia Correctional Institute
refuses to allow attorneys to telephone their clients. My experience is that the
collect call system does not work for non-Ameritech customers. I would need to
find time in my schedule to make a visit.
In addition, your trial counsel has not yet provided discovery. I will need to
remind him.
Finally, I am wondering why you did not use the services of a DNA expert. If you
feel you can discuss that issue in a letter, it would help me. Your trial counsel told
me that the expert would have been no help. This was determined without even
asking any expert. Please tell me if you disagree with counsel’s decision.

Sincerely,
Dianne M. Erickson

J
1

/

/
>'

WASIELEWSKI AND ERICKSON
At'torneys A'tT“Law
1442 North Farwell, Suite 606
Milwaukee, Wisconsin 53202
(414) 278-7776
John T. Wasielewski
Dianne M. Erickson
April 19, 2005

/
-"•v

>
i

Mr. William Bransford
Columbia Correctional Institute
P.O. Box 900
Portage, Wisconsin 53902-0950
Re:

State v. Bransford, 03AP3068-CR

Dear Mr. Bransford:
Enclosed please find your copy of the Supreme Court's denial of
our petition for review. This is very frustrating; I simply do
not believe you should have to do all that time, and no one is
listening.
I feel very badly for you.
I do not know whether if our DNA
expert, Alan Friedman, had been involved earlier in the case, you
might have settled with the state and cut some losses?
I wish I could have helped more.

Sincerely,

Wasielewski & Erickson
ATTORNEYS AT LAW

1442 NORTH FARWELL AVENUE
SUITE 606
MILWAUKEE, Wl 53202
(414) 278-7776
wasieerick@milwpc.com
JOHN T. WASIELEWSKI
DIANNE M. ERICKSON

July 25, 2005
Mr. William Bransford
Columbia Correctional Institute
2925 Columbia Drive
P.O. Box 900
Portage, Wisconsin 53901-0900
Re: State v. Bransford
Dear Mr. Bransford:
I can probably get the transcripts to you this week or next week. Please remember
that these copies are the only copies. I keep no back-up copies, and once they are
gone from my office, I have no more. You should make sure that you do not put
them in jeopardy, such as allowing the prison to destroy them if you move or
giving them to a relative who loses them. Believe it or not, I know of all these
situations occurring!
I know of nothing else you can file, or I would have filed it.
I think Mr. Wasserman has the discovery, but I will double-check.

Sincerely,
anne Erickson

THE DUTY TO INVESTIGATE AND THE AVAILABILITY..., 86 Fordham L. Rev.-

Even if a court were to find that the inability to adequately investigate and challenge government expert testimony amounted
to an incompetent effort, it is virtually certain that the defendant would be unable to prove prejudice. To prove prejudice, the
defendant would need to have the benefit of expert testimony. Otherwise, there would be no way to show that had there been
a court-appointed defense expert at trial, the trial would have unfolded differently. Since the defendant is not even entitled to
appointed counsel in a postconviction attack on a conviction, 85 there is little chance that the indigent defendant will have the
assistance of an expert.
V. THE OVERARCHING QUESTION
The overarching question for defense counsel and judges is this: Can defense counsel have a fair Opportunity to investigate,
appropriately assess, and challenge forensic testimony without the assistance of expert testimony? Justice Breyer hit the nail on
the head in McWilliams when he described the contribution a defense expert in psychiatry might make: the expert “will conduct
an appropriate [1] examination and assist in [2] evaluation, [3] preparation, and [4] presentation of the defense,
no a priori reason to believe that this is less the case when non-mental-health forensic evidence is presented.

„ 86 There is

It seems logical, then, that competent defense lawyers would always consult their own experts in preparing to confront
government experts. Wealthy defendants can retain their own experts. Federal defenders have resources that enable them to
retain experts. But counsel appointed under the Criminal Justice Act87 and by many state courts generally need judicial approval
to obtain funds for expert testimony. There is yet no standard that requires appointment of experts simply because defense
counsel claims a lack of expertise in the subject matter of forensic testimony.
Proposed Rule 707 is useful in stating the factors that prosecutors, defense counsel, and all trial judges should focus on when
forensic testimony is going to be presented by the government in a criminal case.88 If the prosecutor is the proponent of expert
testimony, the prosecutor can focus the expert on *1725 these factors and make the case that they are satisfied. Unless the
court appoints an expert for the defense, defense counsel will have no basis to assess the testimony provided by the prosecution's
expert, and the court itself generally is in no position to identify sua sponte any defects in the forensic testimony. The court could
appoint an expert pursuant to Federal Rule of Evidence 706.89 If the court were inclined to use public funds for this purpose,
however, there is good reason to believe that those funds would be better spent by providing the defense with the expert so that
the factors under proposed Rule 707 could be assessed in an adversarial setting.
The vast majority of federal and state criminal cases are disposed of by plea, 9(3 which might suggest that because only the
infrequent case goes to trial, motions to appoint expert witnesses for indigent defendants could be limited to those cases. But,
there are cases in which prosecutors rely upon forensic evidence while plea bargaining. If a defendant's decision whether to take
a plea or risk a trial depends to any significant extent on the importance of the forensic evidence, is a defense counselor any
better position than at a trial to evaluate that evidence without the help of an expert? The law is clear that defense counsel must
provide competent advice at the plea stage as well as provide competent representation at trial.91 It would be wrong, then, to
conclude that counsel for indigent defendants will not seek appointment of defense expqrts prior to trial while plea bargaining
is underway, and equally wrong to conclude that they have a lesser need for expert assistance than lawyers who go to trial.
Proposed Rule 707 would, if enacted, apply only in federal courts. But the issues that it identifies surrounding forensic testimony
should be equally applicable in state courts, whether or not states have a similar or identical rule. Each of the concerns raised
in this Article about the competency of defense counsel applies in every trial court and for all plea bargains, whether a case
proceeds in state or federal court. Thus, every factor set forth in the proposed mle is something that any court with a rule akin to
Federal Rule of Evidence 702 should already consider in determining whether an expert is qualified, has testimony that would
assist the trier of fact in understanding a *1726 fact in dispute,92 testifies based on reliable methodology,93 has sufficient
facts or data, and applies the reliable methodology in a reliable way to those facts and data. 94

Awendli a
WESTLAW © 2021 Thomson Reu

J
Works.

10

A

Office of the Clerk

WISCONSIN COURT OF APPEALS
___110 East_Main-Street,JSuite-215
P.O. Box 1688
Madison, Wisconsin 53701-1688
Telephone (608) 266-1880
Facsimile (608) 267-0640
Web Site: www.wicourts.gov

DISTRICT I/IV
December 17,2004
To:
Hon. Jacqueline D. Schellinger
Milwaukee County Courthouse
901 North 9th Street
Milwaukee, WI53233

Sally L. Wellman
Assistant Attorney General
P.O. Box 7857
Madison, WI 53707-7857

John Barrett
Criminal Appeals Processing Safety Bldg.
821 West State Street, Rm. 114
Milwaukee, WI 53233

Dianne M. Erickson
Wasielewski & Erickson
1442 North Farwell, Ste. 606
Milwaukee, WI 53202

Robert D. Donohoo
Deputy District Attorney
821 West State Street, Rm. 412
Milwaukee, WI 53233
You are hereby notified that the Court has entered the following opinion and order:
03-3068-CR

State of Wisconsin v. William Bransford (L.C.# 01CF006890

Before Dykman, Vergeront and Lundsten, JJ.
William Bransford appeals the judgment of convictions and sentences on eight felonies,
including six counts of second-degree sexual assault in violation of Wis. Stat. § 940.25(2)(a),'
and the order denying his motion for resentencing. The issue is whether the sentencing court
erred in failing to consider whether Bransford might benefit from Wis. Stat. ch. 980, which
provides for commitment of sexually violent persons after release from imprisonment for
sexually violent offenses. Upon review of the briefs and record at conference, we summarily
affirm.

Append* K.

Bransford was found guilty after a jury trial of the six counts of second-degree sexual
assault-one’Count-ofTobbery-with~use-offorce~mviolation~ofWiS~STAT.~§_943.32(l)(a)“and7
:V:;

-:V •*.

kidnapping in violation of WlS. Stat. § 940.3l(l)(a). The circuit court sentenced him to twelve
•/

:

•

• years each on the robbery and kidnapping charges, eight years confinement on each, consecutive
to each other, and twenty-four years on the second-degree sexual assault charges, sixteen years
confinement on each, consecutive to each other and to any other sentence. In imposing these
sentences, the court did not mention WlS. Stat. ch. 980. Bransford filed a motion seeking
resentencing on the ground that the court should have considered ch. 980 in rendering its
sentence because that chapter provides for commitment at the end of the prison sentence if the
person at the time of release is a sexually violent person as defined in WlS. STAT. § 980.01(7).
Bransford argued in his motion, as he does on appeal, that consideration of the treatment
available under ch. 980 is essential to imposing the minimum term of imprisonment necessary to
rehabilitate Bransford and protect the public, as required by McCleary v. State, 49 Wis. 2d 263,
276, 182 N.W.2d 512 (1971). The circuit court denied the motion on the ground that the court
was not required to consider ch. 980 in determining an appropriate sentence for Bransford’s
crimes.
We conclude the circuit court correctly denied the motion for resentencing. There is no
requirement in WlS. STAT. ch. 980, any other statute, or the case law that a court sentencing a
person convicted of a sexually violent crime consider the availability of ch. 980 in imposing the
sentence. More specifically, there is no indication in ch. 980 that the legislature intended that the
enactment of the chapter would reduce, or have an impact on, the sentences for sexually violent
/
i

All references to the Wisconsin Statutes are to the 2001-02 version unless otherwise noted.

**2

Appendix 102

r

"!

#»

crimes. In addition, there is no meaningful way a court could consider at the time of sentence the
impaet-that-the-potential-avaiiability-of~a“chr980ncommitffleatT[t“tIie_end of a sentence should
-

V

have on the length of the sentence. At the time of sentencing, it is entirely speculative whether
the defendant will meet the statutory definition of a sexually violent person at some future date,
and the sentencing court has no control oyer whether the State decides to file a ch. 980 petition
for any particular individual in the future. The sentencing court must structure a sentence based
on the appropriate sentencing factors of rehabilitation, protection of the public, and gravity of the
offense, McGleary, 49 Wis. 2d at 276, applied to the facts that exist at the time of sentencing. It
has no duty, and no practical way to consider events that may or may not occur after the
completion of the sentence.
IT IS ORDERED that the judgment of convictions and sentences and the postconviction
order are summarily affirmed. See WlS. STAT. Rule 809.21.

Cornelia G. Clark
Clerk of Court ofAppeals

/
r

I

t

' I

/

V-

*

' V'

3

• Appendix 103

STATE OF WISCONSIN :: COURT OF APPEALS
DISTRICT I
STATE OF WISCONSIN,
Plaintiff
Case number:
01-CF-6890

-vsWILLIAM BRANSFORD,
Defendant

MOTION TO EXTEND TIME BY NINETY DAYS
TO FILE POSTCONVICTION MOTIONS OR A NOTICE
OF APPEAL

Current deadline: June 9, 2003
Judge: Honorable Jacqueline D. Schellinger
Dianne M. Erickson, attorney for William Bransford,
requests an additional ninety days to file a postconviction
motion or notice of appeal.
AS GROUNDS, the following are offered:
1. Court reporter, Gloria J. Weber, had asked for a
medical leave, which then unfortunately left her with many
1

transcripts to do; she continued having trouble getting out the
transcripts; these transcripts came in April 9, 2003. She had a
large portion of the trial transcripts. Attorney Erickson in no
way faults her.
2. Defense Counsel Lew Wasserman has not yet
turned over the file; Attorney Erickson had asked him for it
months ago, and called again during the first week of June
2003 for the file.
3. Attorney Erickson’s understanding is that no DNA
expert was hired for this case, and she would like to hire
someone to look at the case; as she is reading the trial, she
feels the need to consult an expert.
4. Attorney Erickson’s schedule in April and in May
was intense, as far as appellate cases were concerned; she
wrote two no-merit reports, two TPR briefs/no merit reports,
one petition for review, one brief-in-chief, one trial court
sentence modification motion (after reading a huge record),
and read one large record on another case. For trial cases, she
has a difficult two-count armed robbery case, among other
matters.
5. After an intense appellate schedule that appeared to
2

begin around December, possibly November 2002, Mr.
Bransford’s case is about the only case left where she still
needs to finish reading the record and make a decision on how
to proceed. She stopped taking cases from the appellate
division, other than one she accepted last week, where she
knew nothing would come due for months.
6. On another case, the Columbia Correctional
Institute, where another client is housed, only reluctantly
allowed Attorney Erickson to call the client on the telephone;
at nearly every other prison, the attorney calls the prison, and
the social worker puts the client on the telephone. On state
public defender cases, the State saves a tremendous amount of
money. The alternative is to accept collect calls, which are
extremely expensive; Attorney Erickson estimates that those
calls might be three to ten times the cost of a normal call, and
such calls only work if the attorney contracts with certain
local telephone carriers. Ms. Erickson’s carrier, AT&T,
usually is blocked. Mr. Bransford is at the Columbia
Correctional Institute.
7. To communicate with Mr. Bransford, Attorney
Erickson would need to drive to Columbia. This is a four

hour round trip from Milwaukee. In addition, since the state
public defender has not paid any of the money owed her
partner and herself for bills submitted after March 3, 2003 and
has instead announced its intent not to pay until July, her
accounts are being steadily drained, mostly by expenses
involved in state public defender cases. If road mishaps
should occur, the accounts would be likely drained. Attorney
Erickson has informed the state public defender for years that
prompt payment is necessary to effectively represent clients,
but nothing has changed. The public defender’s office pays
no expense money up front nor for any work until the case is
closed. Attorney Erickson does not believe road travel to a
prison would be fiscally sound until mid-July, when the state
public defender pays more of its debt, and the accounts are
healthy. This is completely unfair to clients, but the state
public defender is obliged to provide adequate financing. It is
not the private bar’s job to balance state budgets. In all the
time Attorney Erickson has traveled to the prisons, she has
had car trouble three times. Both Attorney Erickson and her
partner, to whom she is married, have spent most of their time
in late 2002 and 2003 on state public defender appellate cases.
4

• i.

The ninety day extension is necessary primarily to hire
an expert to review the discovery and the transcripts.
Attorney Erickson has already seen some issues she desires to
have an expert examine.

.

STATE OF WISCONSIN
MILWAUKEE COUNTY
Dianne M. Erickson, being first duly sworn and on
oath, states that all the facts placed in this motion, are correct,
to the
• > best of her recollection.
/

/

1<LA' -

’

",/

;*

. i' / - A

Dianne M. Erickson
Subscribed to and sworn to before me this 8th day of June,
2003.
C

i
/
/ - C* /

//

1
(

John T. Wasielewski,
Notary public
My commission is permanent.
cc

Attorney General
William Bransford
5

Clerk of Court-Criminal Appeals

Submitted by:
(
V-‘

■-

Dianne M. Erickson,
Attorney for William Bransford
Date: May 8, 2003
SBN: 1009156
P.O. Address:
Wasielewski And Erickson
1442 North Farwell, Suite 606
Milwaukee, Wisconsin 53202
(414) 278-7776

6

MILWAUKEE COUNTY

CIRCUIT COURT
___Branch 12

STATE OF WISCONSIN

STATE OF WISCONSIN,
i III P

Plaintiff,

I

' ^—l 1

vs.
WILLIAM BRANSFORD,

\

Case No. 01CF006890

Defendant.

DECISION AND ORDER
DENYING MOTION TO REVIEW PRESENTENCE REPORT

On June 25, 2014, the defendant filed a pro se motion to review the presentence report in
the above case. He claims that appellate counsel should have requested the court to open the
sealed presentence report because it was relevant to the resentencing motion she had filed and
would have qualified as a new factor. He also claims that he is entitled to a meaningful review
of the report under State v. Parent, 298 Wis. 2d 63 (2006). the request is denied.
First, appellate counsel did not file a no merit appeal. Only a defendant subject to the no
merit procedure on appeal is entitled to a review of the' PSI, but not under normal appellate
circumstances. Parent’s holding was limited to the no merit review process. Here, the issue drat
counsel raised on appeal was whether the sentencing court should have considered the
availability of Chapter 980 in fashioning its sentence. The defendant would not have been
entitled to review the report under Parent in these circumstances.
Second, the sentencing court never read or relied upon the presentence report, and
therefore, it was not relevant to the sentencing proceeding. After the presentence report was
completed, it was learned that the writer had ordered the defendant to be psychologically

examined. A doctor’s report had been submitted which affected the writer’s evaluation of the
defendant.

Because of this and based on the objection of trial counsel, Judge Schellinger

indicated that she was not going to read the report and that all copies would be sealed. (Tr.
6/24/02, p. 8). Consequently, the presentence report was not a document she could have used as
a basis for resententing.
Nor was it unknowingly overlooked by the parties, Thus, it could not be utilized for new
factor purposes. A new factor is a fact or set of facts highly relevant to the imposition of sentence
but “not known to the trial judge at the time of original sentencing, either because it was not then
in existence or because, even though it was then in existence, it was unknowingly overlooked by
all of the parties.” State, v. Rosado, 70 Wis. 2d at 280, 288 (1975). The court agreed with the
parties that the report should not be considered based on the circumstances set forth above.
Nor can the defendant seek review of the report on grounds that he never saw it. Trial
counsel informed the court that the defendant had read the report in its entirety. (Tr. 6/24/02, p.
16).
In sum, a review of the defendant is not entitled to further review of the presentence
report.
THEREFORE, IT IS HEREBY ORDERED that the defendant’s motion to review the
presentence report is DENIED.
Dated this

rj

day of

, 2014, at Milwaukee, Wisconsin.
.•

-v«»

5- •

-

£ BY THE* COURT:
. V

; / 'i f-hf JkgPK

K \; -r
/a

\

\\
BorowskT
h. V-?\. ^-Circuit <3ourt Judge
K'

^------

Office of the Clerk

WISCONSIN COURT OF APPEALS
110 East Main Street, Suite 215
P.O.Box 1688
Madison, Wisconsin 53701-1688
Telephone (608) 266-1880
TTY: (800) 947-3529
Facsimile (608) 267-0640
Web Site: www.wicourts.gov

DISTRICT I
April 29, 2015
To:
Hon. David L. Borowski
Circuit Court Judge
Milwaukee County Courthouse
901 N. 9th St.
Milwaukee, WI 53233
John Barrett
Clerk of Circuit Court
Room 114
821 W. State Street
Milwaukee, WI 53233

Karen A. Loebel
Asst. District Attorney
821 W. State St.
Milwaukee, WI 53233
Michael C. Sanders
Assistant Attorney General
P.O. Box 7857
Madison, WI 53707-7857
William Bransford 294774
New Lisbon Corr. Inst.
P.O. Box 4000
New Lisbon, WI 53950-4000

You are hereby notified that the Court has entered the following opinion and order:
2014AP1607-CR

State of Wisconsin v. William Bransford (L.C. #2001CF6890)

Before Kessler and Brennan, JJ., and Thomas Cane, Reserve Judge.
William Bransford, pro se, appeals an order denying his postconviction motion for
” permission to review his presentence investigation report (PSI). Based upon our review of the
briefs and record, we conclude at conference that this case is appropriate for summary
disposition. See Wis. Stat. Rule 809.21 (2013-14).1 We affirm.\

A jury convicted Bransford in 2002 of six counts of second-degree sexual assault with
use of force, one count of robbery with use of force, and one count of kidnapping. The trial pourt

I

All references to the Wisconsin Statutes are to the 2013-14 version unless otherwise noted.

No. 2014AP1607-CR

ordered preparation of a PSI in advance of sentencing.2 When the matter reconvened for the
sentencing hearing, however, Bransford objected to the PSI because its author, without
consulting or advising trial counsel, had required Bransford to take a psychological examination.
Bransford sought to strike the PSI and to require a new PSI prepared by an author who was
uninfluenced by the results of the psychological examination.
The trial court proposed going forward with the sentencing, explaining that the court bad
not read the PSI and would not do so. To further ensure that the psychological examination
would not affect Bransford s sentencing, the trial court ordered the State to limit any discussion
of the contents of the PSI to objective information and biographical data.

The trial court

additionally assured Bransford that it would seal all of the copies of the PSI so that its contents
could not be. obtained from the court file.

Bransford, through trial counsel, said he was “completely prepared to proceed” as the
trial court proposed. The State also agreed with the trial court’s solution. The State further
advised that it had already identified for defense counsel the portions of the PSI the State would
discuss, and defense counsel had no objection.
The trial Court then conducted the sentencing hearing without reviewing the'PSI'. At the
conclusion of the proceeding, the trial court imposed eight consecutive sentences.

The

The Honorable Jacqueline D. Schellinger presided over the trial and imposed sentence in this
matter. We refer to Judge Schellinger both as the trial court and as the sentencing court. The Honorable
David L. Borowski presided over the postconviction motion that underlies this appeal. We refer to Judge
Borowski as the circuit court.

2

No. 2014AP1607-CR

aggregate term of imprisonment was 168 years, bifurcated as 112 years of initial confinement
and 56 years of extended supervision.
Bransford sought resentencing with the assistance of appointed counsel, who argued the
. sentences were unduly harsh. Bransford did not prevail. His appellate counsel pursued a direct
appeal on his behalf, and this court summarily affirmed.

See State v. Bransford, No.

2003AP3068-CR, unpublished op. and order (WI App. Dec. 17, 2004).
Bransford next filed the postconviction motion underlying this appeal, seeking an order
permitting him to review the sealed PSI. He claimed his postconviction counsel “should have
requested to open the sealed PSI report because information within the report was relevant to the
resentencing motion and would qualify as a new factor.” Bransford asserted that, because he is
now a pro se litigant, he is entitled to review the PSI himself. As authority for his asserted
entitlement, he cited Wis. Stat. § 972.15(4m) and State v. Parent, 2006 WI 132, 298 Wis. 2d
63, 725 N.W.2d 915. The circuit court denied the motion in a written order, and he appeals.
The parties agree that the decision to grant or deny access to a PSI after sentencing rests
in the circuit court’s discretion. We agree as well. See State v. Zanelli, 212 Wis. 2d 358,'378,
569 N.W.2d 301 (Ct. App. 1997). Accordingly, our’Standard of review is highly deferential. See
Olivarez v. Unitrin Prop. & Cas. Ins. Co., 2006 WI App 189, fl6, 296 Wis. 2d 337, 723
N.W.2d 131. We will sustain a discretionary decision if the circuit court undertook a reasonable
examination of the facts and the law, and the record shows a reasonable basis for the circuit
court’s determination. Id., f^f!6-17.
Bransford first claims the circuit court erred because Wis. Stat. § 972.15(4m) affords a
defendant the opportunity to review a PSI upon a showing that the defendant is unrepresented.
3

No. 2014AP1607-CR

The statute provides, in pertinent part: “[t]he district attorney [and] the defendant’s attorney ...
are entitled to have and keep a copy of the presentence investigation report. If the defendant is
not represented by counsel, the defendant is entitled to view the presentence investigation report
but may not keep a copy of the report.” Id. Interpretation and application of statutory language
presents a question of law for our de novo review. See State v. Soto, 2012 WI 93, ^[14, 343
Wis. 2d 43, 817 N.W.2d 848.

>;

.

In this case, Bransford has already ..viewed the PSI. At sentencing, trial counsel advised

the court, while Bransford was in the courtroom: “Mr. Bransford read this report in its entirety.”
Brapsford did not contradict his counsel’s remark.

The statutory provision in Wis. Stat.

§ 972,15(4m) barring the defendant from keeping a copy of the PSI demonstrates that an
offender has only a limited opportunity to review the document. Bransford fails to show that
§ 972.15(4m) affords a prisoner who is unrepresented in collateral proceedings the right to
examine a PSI that he. or she has previously reviewed.3

We do “not read into the statute

language that the legislature did not put in.” Brauneis v. LIRC, 2000 WI 69, ^|27, 236 Wis. 2d
27, 612 N.W.2d 635.

Next, Bransford claims the circuit court erroneously relied on Parent to deny his motion.
i

.

*

In fact, Bransford relied on Parent. The circuit court referred to Parent only to help Bransford
understand why he misplaced his reliance on that case. In Parent, the supreme court held that a

Bransford states in his appellate brief that “he only gleaned [sic] over the PSI during the
sentencing proceeding.” This ambiguous remark, apparently offered to suggest Bransford has not fully
reviewed the PSI, does not undermine the clear record showing Bransford read the PSI “in its entirety.”
“Assertions of fact that are not part of the record will not be considered.” Nelson v. Schreiner 161
Wis. 2d 798, 804, 469 N.W.2d 214 (Ct. App. 1991).

4

No. 2014AP1607-CR

convicted person may view a copy of the PSI in aid of his or her direct appeal under the no-merit
%

procedures described in Wis. STAT. Rule 809.32.

See Parent, 298 Wis. 2d 63, f43.

The

supreme court subsequently held that “the rule of Parent is confined to no-merit appeals.” See
State ex rel Office of the SPD v. Court of Appeals, 2013 WI 31, ^29, 346 Wis. 2d 735, 828
N.W.2d 847.

Bransford’s case does not involve a no-merit appeal.

Therefore, Parent is

inapplicable, as the circuit court correctly explained.
Bransford next assigns error to the circuit court’s conclusion that the PSI “could not be
utilized for new factor purposes.” In his view, because the sentencing judge never read the PSI,
“any information within the psychological examination would qualify as information that [the
*

.

f

j

sentencing judge] was unaware of at the time of sentencing.... The mere fact that information
was not considered by [the] judge ... should qualify it as a new factor upoii future motions.”
Bransford misunderstands the legal concept of “new factor.”

In the context "of sentencing

proceedings, a new factor is ‘“a fact or set of facts highly relevant to the imposition of sentence,
but not known to the trial judge at the time of original sentencing, either because it was not then
in existence or because ... it was unknowingly overlooked by all of the parties.’” State v.
Harbor, 2011 WI 28, ^[40, 333 Wis. 2d 53, 797 N.W.2d 828 (citation omitted). In this case, the
psychological examination and the PSI were in existence at the time of sentencing, so they do
not qualify as factors that were previously nonexistent.

Further, neither the PSI nor the

psychological examination was “unknowingly overlooked”; they were intentionally excluded
from review in response to Bransford’s objection.
Bransford next—and somewhat inconsistently—faults the circuit court for concluding
that the PSI was irrelevant to the sentencing decision. He acknowledges that the sentencing
judge sealed the PSI and never reviewed it. Nonetheless, he asserts the PSI is relevant to a
5

No. 2014AP1607-CR

determination of whether his appellate counsel .should have “raised the issue of the psychological
exam being, performed without the advice of , defense counsel and the effect it had on the
sentencing hearing.

He suggests he might challenge the effectiveness of his appellate counsel

for failing to contend that-the events surrounding the preparation of the PSI deprived him of his
Sixth Amendment right to counsel at sentencing. See U.S. Const, amend. VI. Bransford fails to
demonstrate, however, that information sealed,by the sentencing judge without review affected
the sentencing hearing.

Bransford responds that, unless he examines the PSI, he cannot tell.. whether the
information discussed by the .State at sentencing originated with the psychological examination.
The contention is .unpersuasive.

Bransford plainly has :access to the sentencing transcript,

excerpts of which he included in the appendix to his appellate brief. Despite that access, his
postconviction motion failed to identify any information in the State’s sentencing .remarks that,
in his view, must .have originated with the psychological examination because the information
could have no other source.?

Bransford goes on to complain that the lack of a PSI leads to “a far less fair and just
sentence.” Bransford appears to argue here that the sentencing court erred by not considering the
PSI. That claim, however, is unavailable to Bransford. At sentencing, his trial counsel told the
court that Bransford was “completely prepared to proceed” as the court suggested, without

In the reply brief, Bransford suggests that sentencing remarks by the State concerning his
promiscuous life style” could have been “gleaned” from the psychological report. “It is a wellestablished rule that we do not consider arguments raised for the first time in a reply brief.” Bilda v.
County of Milwaukee, 2006 WI App 57, T[20 n.7, 292 Wis. 2d 212, 713 N.W.2d 661. Nonetheless, we
note Bransford s failure to say that the psychological report is the only possible source for the State’s
information.

6

■

No. 2014AP1607-CR

judicial review of or access to the PSI. Accordingly, Bransford may riot assert that the court
should have reviewed and considered the PSI before imposing sentence. See Shawn B.N. v;
* I

State, 173 Wis. 2d 343, 372, 497 N.W.2d 141 (Ct. App. 1992) (we will not review error invited
by appellant); see also State v. McDonald, 50 Wis. 2d 534, 538-39, 184 N.W.2d 886 (1971)
(defendant who acquiesces to trial counsel’s strategic choice is bound by that decision).
Next, and perhaps relatedly, Bransford complains that “it is not logical ... to impose an
aggregate total sentence of 168 years without any assistance of a PSI,” and he asserts a
sentencing court needs a PSI to conduct “the ‘beyond a reasonable doubt’ analysis.” He is
wrong. First, “[information upon which a trial court bases a sentencing decision, as opposed to
a finding of guilt, need not, of course, be established beyond a reasonable doubt.” State v.
Marital, 172 Wis. 2d 491, 502, 493 N.W.2d 758 (Ct. App. 1992). Second, “a PSI is riot required
prior to sentencing.” State v. Greve, 2004 WI 69, f10, 272 Wis. 2d 444, 681 N.W.2d 479.
Bransford next asserts the PSI is an important document that influences correctional
decisions.

Nothing in the postconviction motion, however, alleged that the sealed PSI is

affecting his institutional placement, nor has he demonstrated that review of the document could
facilitate any change in his institutional treatment.

We do not address arguments that are

inadequately briefed, see State v. Pettit, 171 Wis. 2d 627, 646, 492 N.W.2d 633 (Ct. App. 1992),
or presented for the first time on appeal, see State v. Champlain, 2008 WI App 5, 1(17, 307
Wis. 2d 232, 744 N.W.2d 889.
Bransford concludes his reply brief by complaining he is unfairly required to disclose the
basis for a contemplated future postconviction motion in order to review the PSI. He faces no
such requirement. To prevail, however, he must persuade the circuit court that it should, in the

7

• •*.
No. 2014AP1607-CR

c

-

exercise of its discretion, permit him to read a PSI he previously viewed. See Zanelli, 212
Wis. 2d at 378.

He attempted to carry his burden by asserting that the PSI is relevant to
t

resentencing and would qualify as a new factor. The circuit court did not agree with him. We
see no error. Therefore,
;

IT IS ORDERED that the circuit Court’s order is summarily affirmed See Wis. Stat.
Rule 809.21.

T, •

Diane M. Fremgen
Clerk of Court ofAppeals

)

h

8

